                       0


  FINANCIAL    AND COST ASPECTS OF OTHER TRANSACTIONS



Report Number 98-191                        August 24, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 6048932 or visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSD.MIL.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support
  Directorate at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas
  and requests can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to
  Hotline@DODIG.OSD.MIL;        or by writing to the Defense Hotline, The
  Pentagon, Washington, D.C. 20301-1900. The identity of each writer and caller
  is fully protected.




Acronyms

CECOM                 Army Communications     - Electronics Command
DARPA                 Defense Advanced Research Projects Agency
DDP                   Director, Defense Procurement
DCMC                  Defense Contract Management Command
DDR&E                 Director, Defense Research and Engineering
                           INSPECTOR           GENERAL
                             DEPARTMENT       OF    DEFENSE
                               400    ARMY   NAVY    DRIVE
                         ARLINGTON,     VIRGINIA     22202-2884




                                                                                   August 24, 1998

MEMORANDUM          FOR DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
                        DIRECTOR, DEFENSE PROCUREMENT
                        ASSISTANT SECRETARY OF THE AIR FORCE
                           (FINANCIAL MANAGEMENT AND COMPTROLLER)
                        DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                           SERVICE
                        DIRECTOR, DEFENSE LOGISTICS AGENCY
                        AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:     Audit Report on Financial and Cost Aspects of Other Transactions
             (Report No. 98-191)


        We are providing this final report for review          and comment.     This is the first of
 two audit reports concerning the DOD use of “other           transactions. ” We considered
 comments from the Director, Defense Research and              Engineering; the Director, Defense
.Procurement; the Army; the Air Force; the Defense             Finance and Accounting Service;
 and the Defense Logistics Agency on a draft of this          report in preparing the final report.

         DOD Directive 7650.3 requires that all recommendations   be resolved promptly.
We request the Director, Defense Research and Engineering, provide comments that
identify the date of the planned action in response to Recommendations    1. b., 1 .d.,
1 .g., 1. h., and 2. We also request the Director, Defense Procurement, provide
additional comments that identify the date of planned action on Recommendations         2.
and 3.a.) 3.b.) 3.d.) and 3.e.) and provide comments on Recommendation        3.~. The
Army is requested to provide additional comments on Recommendation        5. All
additional comments should be provided by October 23, 1998. The Defense Finance
and Accounting Service provided comments to the draft report and as a result of those
comments, we deleted the recommendation       addressed to them.

        We appreciate the courtesies extended to the audit staff. Questions on the audit
should be directed to Mr. Raymond A. Spencer at (703) 604-9071 (DSN 664-9071) or
Mr. Roger H. Florence at (703) 604-9067 (DSN 664-9067). See Appendix D for the
report distribution. The audit team members are listed inside the back cover.




                                             David K. Steensma
                                      Deputy Assistant Inspector General
                                                 for Auditing
                          Office of the Inspector General, DOD

Report No. 98-191                                                       August 24, 1998
 (Project No. 7AB-0051)

               Financial and Cost Aspects of Other Transactions

                                 Executive Summary

Introduction. This audit was a joint audit effort involving the Inspector General,
DOD, and the Defense Contract Audit Agency. The Inspector General, DOD, had
overall cognizance for this audit. Also, personnel from the Defense Research and
Engineering, Defense Procurement, Defense Advanced Research Projects Agency, and
the Defense Contract Management Command participated in this audit and contributed
to its positive outcome. This is the first of two audit reports concerning the DOD use
of “other transactions. ” This report discusses the DOD administration of “other
transactions. ” The second audit report will discuss the review of costs charged to the
agreements by the “other transaction” participant(s).

“Other transactions” are instruments other than contracts, grants, and cooperative
agreements that are used to stimulate, support, or acquire research or prototype
projects. “Other transactions” were authorized as instruments to be used to reduce
barriers to participation of commercial firms in DOD research, thereby contributing to a
broadening of the technology and industrial base available to the DOD and fostering
new relationships and practices with the technology and industrial base that support
national security. “Other transactions” are generally not subject to statutes or
regulations associated with contracts, grants, and cooperative agreements.

The authority to use “other transactions” for research projects is in Section 2371 of
Title 10, United States Code, “Research Projects: Transactions Other Than Contracts
and Grants. ”

Section 845 of the National Defense Authorization Act for Fiscal Year 1994 augmented
the “other transactions” authority to allow prototype projects to be developed that are
directly relevant to weapons or weapons systems for the Defense Advanced Projects
Agency. This authority was expanded to the Military Departments.       “Other
transactions” for prototype authority is scheduled to end on September 30, 1999.

For the period of fiscal years 1990 to 1997, the Department issued 210 “other
transaction” and prototype agreements valued at about $3.4 billion.

Audit Objectives. The overall audit objective was to evaluate the financial and cost
aspects of “other transactions. ” Specifically, the audit evaluated the administration of
“other transactions” for research and prototypes by the Defense Advanced Research
Projects Agency, Army Communications         - Electronics Command, the Air Force
Wright Laboratory, and the Defense Contract Management Command.            We also
evaluated the adequacy of management controls related to “other transactions” at the
Army Communications       - Electronics Command, the Air Force Wright Laboratory, and
the Defense Contract Management Command centers in Seattle and Syracuse.
Audit Results. Administration     of “other transactions” for research and prototypes was
improving and was generally adequate for 77 “other transactions” reviewed, valued at
$1.7 billion, issued during fiscal years 1992 through 1997. However, the Army, the
Air Force, and the Defense Contract Management Command need to improve their
management controls relating to the administration of “other transactions.”     As a
result, DOD officials did not have all the information necessary to adequately monitor
“other transactions,” did not adjust milestone payments when necessary, forfeited
interest, and did not receive information necessary to preclude duplicating research.
Finally, the Directors, Defense Research and Engineering and Defense Procurement,
did not establish quantifiable performance measures to determine the costs and benefits
resulting from the use of “other transactions.”

Summary of Recommendations.         We recommend that the Directors, Defense
Research and Engineering and Defense Procurement, issue policy guidance to improve
research and prototype performance reporting, to require maintenance of DOD funds in
interest bearing accounts and prohibit the reinvestment of interest from DOD funds into
the research programs, and establish quantifiable performance measures for “other
transactions. ” We recommend that the Army Communications         - Electronics Command
require submission of research status reports. We also recommend that the
Commanders for the Army Materiel Command and the Air Force Materiel Command
and the Director, Defense Logistics Agency, include “other transactions” in the
management control programs.

Management Comments. The Directors, Defense Research and Engineering and
Defense Procurement concurred and will issue policy to comply with the intent of the
recommendations.     The Office of the Assistant Secretary of the Army (Research
Development and Acquisition) partially concurred with the two recommendations
addressed to the Army. However, the Army believed it was premature to include the
“other transactions” in the management control program until the Office of the
Secretary of Defense level policy was issued. The Air Force and the Defense Logistics
Agency concurred with the recommendation       addressed to their organizations.
Management comments are discussed in Part I and the complete text of management
comments is in Part III.

Audit Response. Comments        from the Directors, Defense Research and Engineering
and Defense Procurement, were responsive to the intent of the recommendations         but
did not identify when all actions would be accomplished.    In addition, the Director,
Defense Procurement, needs to provide comments on the recommendation          requiring the
maintenance of DOD funds in interest-bearing accounts. Comments provided by the
Assistant Secretary of the Army (Research Development and Acquisition) satisfied one
of two recommendations.     The Assistant Secretary is requested to reconsider when to
include “other transactions” in the management control program. All management
comments to this report are requested by October 23, 1998.




                                             ii
Table of Contents

Executive Summary                                              i

Part I - Audit Results
      Audit Background                                      2
      Audit Objectives                                      5
      Administering Other Transactions                      6

Part II - Additional Information
      Appendix A. Audit Process
        Scope                                              24
        Methodology                                        25
        Contacts During the Audit                          26
        Management Control Program                         26
        Summary of Prior Coverage                          27
      Appendix B. Other Transactions Reviewed              28
      Appendix C. Summary of Other Transactions   Issues
      Appendix D. Report Distribution                      G

Part III - Management      Comments
      Defense Research and Engineering Comments            42
      Defense Procurement Comments                         47
      Department of the Army Comments                      53
      Department of the Air Force Comments                 56
      Defense Finance and Accounting Service Comments      57
      Defense Logistics Agency Comments                    59
Part I - Audit Results
Audit Background

    History. “Other transactions” are instruments other than contracts, grants, and
    cooperative agreements that are used to stimulate, support, or acquire research
    or prototype projects, “Other transactions” were authorized to reduce barriers
    to commercial firms in DOD contracting for research, to contribute to a
    broadening of the technology and industrial base available to the DOD, and to
    foster new relationships and practices with commercial technology and industrial
    base firms that support national security. “Other transactions” remove many of
    the acauisition regulation normallv established for contracts or grants, including
    the Federal Acqukition Regulation, Defense Federal Acquisitioi Regulation
    Supplement, and cost accounting principles.

    In 1989, Congress enacted Title 10, United States Code, Section 2371
    (Title 10 U .S.C. 2371) authorized the use of “other transactions” for basic,
    applied, and advanced research projects. Title 10 U.S.C. 2371, “Research
    Projects: Transactions Other Than Contracts and Grants,” was enacted as a
    2-year pilot effort for the Defense Advanced Research Projects Agency
    (DARPA). The National Defense Authorization Act for FY 1992 broadened the
    authority to the Military Departments and made it permanent.      In issuing an
    “other transactions,” the Military Departments and Defense agencies must
    ensure that DOD funding of the research does not exceed that provided by the
    non-Government     parties to the maximum extent practical, and that the research
    should not duplicate research already performed. “Other transactions” are
    usually issued to a consortium consisting of private companies, not-for-profit
    agencies, universities, and Government organizations.     “Other transactions”
    may be used when a standard contract. grant, or cooperative agreement is not
    feasible or appropriate.

    The National Defense Authorization Act of FY 1994, Section 845, augmented
    the “other transactions” authority and allowed prototype projects directly
    relevant to weapons or weapon systems to be issued. Section 845 was a 3-year
    pilot authority allowing DARPA to use “other transactions” for prototype
    projects. Later, the National Defense Authorization Act of FY 1997,
    Section 804, broadened the authority to the Secretaries of the Military
    Departments and other officials designated by the Secretary of Defense.
    Section 804 also extended the authority to September 30, 1999. “Other
    transactions” for prototypes does not require cost sharing by the research
    participant(s), must be awarded using competitive procedures, and may be used
    even when a traditional contract would be feasible or appropriate.

    Management of “Other Transactions.”         The DARPA contracting office
    plans, negotiates, issues, and administers “other transactions” to support the
    DARPA mission. The Military Departments or research laboratories also
    administer some of DARPA “other transactions. ” In January 1995, DARPA
    began a pilot project with the Defense Contract Management Command
    (DCMC) to use DCMC offices to administer the agreements.        Initially, DCMC
    Seattle was the center responsible for administering “other transactions” for
    DARPA.



                                         2
DCMC Seattle administrative responsibilities include authority to modify
agreements, revise payable milestones, monitor financial aspects, administer
payments, negotiate changes, monitor property acquired with Government
funds, monitor agreement progress, and to ensure receipt of research progress
reports. DARPA considered the administrative efforts on “other transactions”
by DCMC Seattle a success. Later, DCMC expanded the administrative
responsibilities to three additional centers (DCMC Syracuse, DCMC San Diego,
and DCMC Atlanta) and encouraged the Military Departments to assign
administrative responsibility for “other transactions” that they issued to the
centers.

Department    Guidance for Using “Other Transactions.”          DOD responsibility
for issuing guidance in the use of “other transactions” is divided as to whether
the principal purpose of the agreement is to provide support or assistance or to
acquire goods or services. The Director, Defense Research and Engineering
(DDR&E), is responsible for “other transactions” guidance for research. The
Director, Defense Procurement (DDP), is responsible for “other transactions”
guidance for acquiring prototypes.

        Research “Other Transactions.”     In 1994, the DDR&E issued interim
guidance to the Military Departments and DARPA on using research “other
transactions. ” The DDR&E updated the 1994 draft guidance for “other
transactions” in December 1997 and March 1998 as a result of legislative
changes and lessons learned by using the agreements. In the revised guidance.
the DDR&E established a new class of assistance instruments called
“technology investment agreements,” which includes types of “other
transactions” and cooperative agreements used by DARPA and the Military
Departments to increase participation of commercials firms in DOD research.
The policies and procedures in the 1994 DDR&E guidance are applicable to the
“technology investment agreements. ”

         Prototype “Other Transactions.”     The guidance issued for Section 845
“other transactions” for prototypes is an Under Secretary of Defense for
Acquisition and Technology memorandum on December 14, 1996, “ 10 U.S.C.
(United States Code) 2371, Section 845, Authority to Carry Out Certain
Prototype Projects. ” The memorandum states that the Directors of the Defense
agencies have the authority to use Section 845. The memorandum also states
that, to the maximum extent practicable, competitive procedures will be used to
award a Section 845, the applicability of particular statutes or regulations is
limited in prototype “other transactions,” and good business sense and
appropriate safeguards must be incorporated. The memorandum also listed
statutes that may not necessarily apply to Section 845 “other transactions. ”
DDP also issued guidance in October 1997 on the assignment of agreement
identification numbers and collection of data for Section 845 “other
transactions. ”

Administering    **Other Transactions.”    Either the Military Department or a
Defense agency administers “other transactions” for research or prototypes or
the administration is delegated to the DCMC. In the Military Departments and
Defense agencies, administering an “other transaction” is a team effort that
includes the contracting officer, a buyer, and a Government technical
representative. At DCMC, an agreements administrator under the authority of
                                     3
the administrative contracting officer administers “other transactions,” which
includes participating in program reviews, monitoring receipt of quarterly
reports, monitoring cost sharing where applicable, processing agreement
modifications, processing payments, monitoring and controlling property
acquired with project funds, and processing agreement close-outs. The
technical representative monitors the technical aspects of the research or
prototype effort while the agreement administrator monitors the nontechnical
aspects. DCMC Seattle is developing an “Other Transactions Handbook” to
provide guidance in administering agreements.

Administering “other transactions” is different from administering traditional
contracts or grants because “other transactions” have unique elements, which
include cost sharing, whenever practical, and a mutual interest in the research
subject by DOD and the research participants.     Because of their unique elements,
“other transactions” may even be different from each other. “Other
transactions” for research are different from contracts for research because the
“other transaction” supports and stimulates research efforts as opposed to
acquiring research services. Administering “other transactions” for research
includes monitoring the research effort through quarterly status reports,
monitoring research expenditures, processing research payments to the lead
participant, and ensuring receipt of final research technical reports.

Administering an “other transaction” for a prototype differs from research in
that cost sharing is not required, it usually involves one participant instead of a
group of participants, payments may be based on cost instead of a
predetermined payment schedule, and final reports may not be required. When
the prototype “other transaction” effort is complete, the prototype may be
delivered to the Government.

Use “Other Transactions.”       The Military Departments, DARPA, and Defense
agencies use “other transactions” for both research (10 U.S.C. 2371) and
prototypes (Section 845), as shown in the following table.




                                      4
     Table 1. Research and Prototype Agreements Issued by the Department

                           FY 1995                 FY 1996                   FY 1997
                   m                 845       2371        845         g7J             845

     Army              0              0          10         0             1             10


     Navy              0              0           5         0             1             20

     Air Force         0              0           2         0             1              8

                     34               6 I.?                             17              42
     DARPA                                       19         8’

     NIMA’           9               _Q          1!         0            9              1

      Total          34               6*        36          8           20              45*

     Value
     (millions)   $570.3        $181.9        $430.7     $55.2        $145.3           $405 .o

     ‘DARPA was the only agency within DOD that had the authority to issue “other transactions”
      for prototypes until FY 1997.
     ‘Section 845 efforts that had multiple phases were not counted as separate agreements in this
      report. FY 1995, DARPA had one phased effort for a total of seven agreements versus
      the six shown in the table total. For FY 1997, DARPA had 3 phased efforts and NIMA
      had 2 phased efforts for a DOD total of 50 agreements versus the 45 shown.
     ‘National Imagery and Mapping Agency.


Audit Objectives
     The overall audit objective was to evaluate the financial and cost aspects for
     “other transactions. ” Specifically, this audit evaluated the administration of
     “other transactions” for research and prototypes by DARPA, the Army
     Communications - Electronics Command (CECOM), Air Force Wright
     Laboratory, and DCMC. We also evaluated the adequacy of management
     controls related to “other transactions” at the CECOM, Wright Laboratory, and
     the DCMC centers at Seattle and Syracuse. We did not review “other
     transactions” issued by the Navy or Defense agencies because of the limited
     number of “other transactions” that they issued at the time of our audit
     selection. Appendix A describes the audit scope and methodology, and
     identifies two prior audits that address “other transactions.”




                                                  5
          Administering Other Transactions
           The DOD administration of “other transactions” for research and
           prototypes generally has been adequate. However, the Army, the Air
           Force, and the Defense Contract Management Command need to
           improve their management controls. This condition exists because
           guidance was insufficient for administering “other transactions,” and
           management did not devote sufficient attention to develop a process to
           quantify the benefits from using “other transactions.”   As a result, DOD
           officials did not have the information necessary to adequately monitor
           “other transaction” efforts, did not adjust milestone payments when
           necessary, forfeited interest, and did not receive information necessary
           to preclude duplicating research. Finally, the Directors, Defense
           Research and Engineering and Defense Procurement, did not establish
           auantifiable performance measures to determine the costs and benefits
           resulting from using “other transactions. ”


Summary of Audit Results

    The audit judgmentally selected and examined 77 “other transactions” reviewed,
    valued at $1.7 billion, issued during FYs 1992 through 1997. The 77 “other
    transactions” included 60 agreements for research and 17 agreements for
    prototypes.   DARPA, CECOM, Air Force Wright Laboratory, and DCMC
    centers administered the 77 “other transactions.”   Details are in Appendix B.
    The following table summarizes the audit results by 10 U.S.C. 2371 (research)
    and Section 845 (prototype).   The details are in Appendix C.




                                        6
                                                                   Administering Other Transactions


                          Table 2. Summary of Audit Sample Results

                                             Number of Occurrences       Percent of Occurrences
                                             Research       Prototvoe    Research       Prototype


     Reports on hand
       o Techntcal                           52 of 58        17 of 17        89            100
       o Business                            48 of 56        16 of 16        86             loo
     Busmess status reports submitted that
      show cost by
       o Participant                         42 of 48        16 of 16        88             100
       o Task                                23 of 42        13 of 16        55              81
     Annual program plan submitted           35 of s7          4 of6         61              66
     Interest provision in agreement          6of60           0 of 11        10               0
     Modification    in files                40 of 40         2 of 2        100             IO0
     Invoices properly cenifted              59 of 60        17 of 17        98             I00
     Research effort complete and
       final report submmed                   4of21            0 of 0         19              0




Monitoring Performance

    Government technical representatives and administrative officials monitor
    research and prototype efforts by attending program management reviews and
    annual meetings, by continuing discussions with research participants, and by
    reviewing technical and business status reports. DARPA, CECOM, and Wright
    Laboratory issue “other transaction” agreements that usually require technical
    and business status reports on a quarterly basis. Although the participants
    generally submitted the quarterly reports for both research and prototype “other
    transactions,” the quarterly reports for research were late or did not provide the
    required expenditure information.

    Technical Status Reports. Government         technical officials use the quarterly
    technical status reports as a tool to monitor research. The technical status
    reports provide information on developments, report problems, and identify
    technical issues or major developments.     Technical reports also provide a
    documented record, which is necessary if the Government technical
    representative is reassigned. Quarterly reports were required for 58 research
    and 17 prototype “other transaction” agreements (Appendix C). For research
    “other transactions,” 52 of the 58 agreements reports were submitted as
    required. Therefore, six “other transactions” for research did not have the
    required quarterly report submitted as required. In addition, of the 52 research
    “other transactions” that had reports submitted, 5 agreement reports were
    submitted more than 3 months late. All the reports were submitted for the
    prototype “other transactions. ”

    An example of late technical reports concerns an agreement that Wright
    Laboratorv administered for DARPA. The $14.8 million DARPA research
    “other transaction” No. MDA972-94-3-0016       required developing
    high-performance   analog optoelectronic modules. The DARPA agreement was
    a two-phased research effort that required the consortia to submit quarterly


                                                        7
Administering   Other Transactions


       technical reports to the Government technical officials at the Wright Laboratory.
       The consortium submitted late reports during both phases of the research effort.
       For Phase Two, the consortium combined the quarterly reports into one
       submission.

       An example of what to do if a technical report was not submitted was illustrated
       in an agreement that DCMC Seattle administered.       DCMC Seattle was
       responsible for monitoring a $7.9 million DARPA MicroModule Systems
       research “other transaction” No. MDA972-96-3-0002        to develop industry-
       standard high-performance    embedded processor applications.     The consortium
       had not submitted the technical or business status reports required in the
       agreement.   The agreement administrator requested the reports from the
       consortium lead but was unsuccessful; therefore, the agreement administrator
       informed the consortium program manager that future invoices would not be
       paid until he received the reports.

       Business Status Reports. The research participant submits quarterly business
       status reports to the technical representative and the agreement administrator to
       assist them in monitoring the status of the research or prototype efforts. The
       “other transaction” agreements require the research participant to summarize
       expenditures of all the participants in a business status report. The business
       status reports require quarterly status expenditures as outlined in the Annual
       Program Plan, with an explanation of major expenditure deviations and a
       discussion of any necessary adjustments.      Quarterly business status reports were
       required for 56 research and 16 prototype “other transaction” agreements
       (Table 2). Business status reports were submitted for 48 of the
       56 research agreements and for all 16 prototype agreements.       The 48 research
       “other transactions” that had business status reports submitted, 3 research
       agreements had reports submitted more than 3 months late.

       The absence and untimely receipt of business status reports inhibit the
       agreement administrators’ monitoring efforts in relation to the Annual Program
       Plan and identifying potential problems. For example, DARPA agreement
       No. MDA972-94-3-0033        was a $14.2 million effort with DARPA providing
       $5.7 million. The research participant effort was a two-phased joint effort with
       six private-sector businesses providing different amounts of cost sharing for the
       next generation of high-speed communications networks. Although the
       Phase One effort began in 1994, the later stages of Phase One research occurred
       at the same time that the Phase Two research efforts began. Both Phase One
       and Phase Two business status reports were submitted as much as 9 months late
       and combined quarterly reports for multiple quarters. As a result, the
       agreement administrator did not receive the information necessary to effectively
       monitor expenditures, and precluded the reports from being used as a tool in
       monitoring the research progress.

       CECOM issued an “other transactions” for research that did not always require
       quarterly business status reports. Of the six “other transactions” issued by
       CECOM, three did not require business status reports. For example, CECOM
       issued a $2.6 million “other transaction” No. DAAB07-96-3-JO17 for research
       on mass production of low-cost optical systems. CECOM and four private-
       sector businesses shared the cost of the research effort. Although the CECOM
       agreement required quarterly technical status reports, it did not require quarterly


                                             8
                                                Administering Other Transactions


    business status reports. After the research effort began, the Government
    technical representative requested the CECOM contracting officer to modify the
    “other transaction” to identify costs associated with specific research tasks.

    The three CECOM agreements did not require quarterly business status reports
    because the contracting officer believed they were unnecessary and that DDR&E
    policy did not require them. DARPA and Wright Laboratory “other
    transaction” agreements have always required the consortium to submit
    quarterly business status reports.

    Wright Laboratory administered a DARPA research “other transaction”
    No. MDA972-93-2-0007, valued at $9.6 million, to develop ceramic matrix
    composite components. The DARPA research agreement require quarterly
    business status reports; however, the consortium did not submit them for the
    research effort. Wright Laboratory officials did not enforce the requirement
    because they were not monitoring the cost associated with the research effort.

    Government technical representative and administrative officials need timely
    quarterly technical and business status reports to effectively monitor research
    and prototype progress. The quarterly reports provide a history of the progress
    and help identify problem areas. The contracting officer and administrative
    official should continue to encourage the timely receipt of quarterly reports;
    however, if unsuccessful, the administrative contracting officer should withhold
    milestone payments to the participant(s). In addition, CECOM should require
    quarterly status reports for all “other transactions.”


Expenditure Reporting
    Participants did not always report costs adequately. Of the 48 research “other
    transactions” that submitted business status reports, 42 reported costs by
    individual participant. Of the 42 research agreements, 23 reported costs by task
    or milestone. The business status reports assist in monitoring the financial
    performance of participant(s) and ensure that financial obligations of the
    participant(s) are met. In addition, business status reports assist the agreement
    administrator to identify expenditure underruns and overruns at different phases
    of the effort in relation to the expenditure plan for individual tasks.
    Expenditure reporting by the individual participant and task is important when
    multiple participants are conducting the research effort and when
    reimbursements to individual participants are based on task accomplishments.
    Because of the nature of the effort, tasks may move, requiring adjustments to
    the milestone payment schedule. The agreement administrator needs to monitor
    expenditures associated with research “other transactions” because the DOD
    contributions should not exceed the cost ratio in the agreement when the
    research effort nears completion. Monitoring expenditures is less important for
    prototype agreements because they usually have one participant and do not
    require cost sharing.

    Expenditure Reporting. To monitor expenditures, agreement administrators
    need participants to report expenses by participant and task. Expenditure
    reporting for the 48 research agreements that submitted business status reports


                                        9
Administering Other Transactions


      encompassed a wide spectrum, including reporting milestone payments as actual
      expenses, reporting expenditures at the consortia total, reporting expenditures
      by only research participant, and reporting expenditures by research participant
      and task. For example, CECOM issued research “other transaction”
      No. DAAB07-963-D759         to develop Digital Wireless Communications     and
      Networking Systems, and the cost reporting was inadequate to monitor
      expenditures.   The CECOM agreement was an equal cost sharing of the
      $2.8 million effort between CECOM and the consortium.         The consortium,
      composed of four private-sector companies, submitted two business status
      reports for a 12-month period and reported the CECOM payment values in both
      reports were costs incurred for conducting the research. The agreement states
      that the business status reports should include a quarterly reporting of current
      expenditures as outlined in the Semi-Annual Plan with major deviations
      explained along with discussions of the adjustment actions proposed. The
      consortium’s reporting of the CECOM payments as current expenditures did not
      comply with the agreement, and CECOM could not determine the actual costs
      of the research effort.

      Insufficient cost reporting was also illustrated in an agreement in which business
      status reports combined actual expenditures and DARPA funding. The “other
      transaction,” No. MDA972-94-3-0016,        administered by Wright Laboratory,
      was to develop an Analog Optoelectronic Module. The DARPA agreement
      required equal cost sharing of $14.8 million with six research participants.
      Although the consortium lead reported quarterly expenditures to Wright
      Laboratory, the business status reports showed that some participants reported
      actual expenditures while other participants reported the DARPA payments as
      their research costs. Research participants who report DARPA payments as
      research expenditures inhibit the administrators in accomplishing their
      responsibility to monitor expenditure underruns or overruns.

      Without sufficient expenditure reporting, agreement administrators cannot
      effectively monitor the actual cost of research efforts and, therefore, cannot
      ensure that research efforts are progressing adequately and that research
      participants are satisfying their cost-share responsibilities. Because prototype
      “other transactions” usually involve only one participant, reporting at the
      participant level was sufficient.

      DCMC Module for Expenditure Reporting. DCMC Seattle developed a
      module to report participant expenditures for “other transactions.”   The Seattle
      module required quarterly expenditure reporting by research participant, by task
      or milestone, and by type of expenditure (cash or non-cash). The Seattle
      module also required identifying expenditure variances in relation to the
      program plan with an explanation for the cause of the variance. The DCMC
      Seattle encouraged participants to report expenditures according to the module
      because Seattle believed that they needed detailed information to effectively
      administer the agreements.

      DARPA conducted periodic assessments of DCMC Seattle’s administration of
      “other transactions” and concluded that DCMC Seattle was conducting an
      effective program. However, DARPA issued an assessment report stating that
      DCMC Seattle needed to obtain better information on consortia expenditures.



                                           10
                                                  Administering    Other Transactions


     The DARPA assessment report stated that the DCMC Seattle expenditure
     module represents the necessary expenditure reporting and tracking needed to
     effectively monitor the research efforts.

     Participant cost reportjng has generally not been sufficient to properly monitor
     research costs. The participant should report expenditures at the research
     participant, milestone, or task level, and the participant should compare
     expenditures with the annual program plan to identify variances. We agree with
     the DARPA assessment of the DCMC Seattle expenditure module, and agree
     that DDR&E should require the module to be incorporated in “other
     transaction” agreements with DARPA, the Military Departments, and other
     Defense agencies. “Other transactions” for prototypes generally involve one
     participant, and detail cost reporting at the task level may not be appropriate for
     that type of agreement.


Adjusting Payable Milestones

     The agreement administrators were not adjusting the reimbursement schedules
     when reimbursement payments exceeded research expenditures.         DARPA,
     CECOM, and Wright Laboratory established payable milestones to reimburse
     research participants for achieving preestablished technical milestones.     DCMC
     Seattle established criteria that state that when payable milestone schedules
     exceed actual expenditures by 10 percent, the agreement administrator should
     reevaluate the agreement for potential payment adjustments.      The agreement
     administrators did not take timely action when payable milestones exceeded the
     actual research expenditures.     For example, DARPA issued “other transaction”
     No. MDA972-95-3-0004         to conduct research in holographic data storage
     collections systems. The DARPA agreement, valued at $32.2 million, required
     equal cost sharing between DARPA and the consortium.          DARPA assigned the
     agreement administration to DCMC Seattle in October 1995.

     Milestone payments to the consortium exceeded actual expenditures for five of
     seven quarters beginning in December 1995, and the unspent balance steadily
     increased from $68,000 to more than $1 million. However, DCMC Seattle did
     not take action on the excess payments until April 1997, when the actual costs
     were 30 percent below the total amount of reimbursement.     The agreement
     administrator requested the consortium to explain the cause of the variance and
     requested the consortium to submit a revised expenditure plan. Agreement
     administrators need to take more concerted action to evaluate adjusting payable
     milestones when excess DOD milestone payments exceed expenditures.        The
     DOD Grant and Agreement Regulations require that research advance payments
     be limited to the minimum amounts needed to carry out the program. The
     preceding example identifies an agreement in which the milestone payment
     schedule exceeded the research expenditures, and the agreement administrator
     needed to review the milestone payment schedule. However, as reported in the
     section on “Expenditure Reporting” the agreement administrators do not always
     have the detail expenditure information to conduct comparisons of payable
     milestone values to research or prototype expenditures.




                                          11
Administering   Other Transactions


Annual Program Plan
       DARPA, CECOM, and Wright Laboratory “other transaction” agreements
       generally require the participant to submit an Annual Program Plan (the Plan) to
       the Government technical representative for research and prototype efforts. The
       Plan provides a detailed schedule of research or prototype activities, outlines
       how the agreement participant(s) will meet specific performance objectives,
       forecasts expenditures, and describes payable milestones.     The Plan consolidates
       all prior adjustments in the research or prototype schedule, including revisions
       and modifications to the agreement. Research and prototype participants did not
       always submit the Plan as required. For 57 research agreements that required
       submission of the Plan, participants submitted the Plan for 35 agreements.      For
       the six prototype agreements that required the Plan, participants submitted the
       Plan for four agreements.    Therefore, research participants did not always
       comply with the terms of the agreement.

       Although the Plan is a useful management tool, the DARPA “other
       transactions” agreements did not require participants to submit the Plan to the
       agreements administrator responsible for monitoring the efforts. ‘DARPA
       delegated the administrative responsibility of 42 “other transactions” to either
       CECOM, Wright Laboratory, or DCMC. Of the DARPA agreements for
       research or prototypes, 41 agreements required the submission of the Plan;
       however, none of the agreements required submission of the Plan to the
       organization responsible for administering the agreement.     CECOM, Wright
       Laboratory, and DCMC personnel obtained the Plan for 24 of the
       41 agreements through their own initiative. The agreement administrator would
       be able to monitor the research more effectively if participants were required to
       submit the Plan to the responsible organization.

       DARPA retained the administration for 28 “other transactions,” and 17 of the
       research and prototype agreements required participants to submit the Plan.
       Examination of DARPA files showed that DARPA had the Plans for 12 of
       17 agreements.   DARPA administration of the agreements was inhibited by not
       having the Plans to use as a historical record of technical achievements.


Interest Income
       The Inspector General, DOD, Report No. 97-114, “Award and Administration
       of Contracts, Grants, and Other Transactions Issued by the Defense Advanced
       Research Projects Agency,” March 28, 1997, identifies that “other transaction”
       agreements did not require consortium leads to maintain Government funds in
       interest-bearing accounts before disbursement to the research participants.   For
       11 “other transactions,” the consortium earned $1.9 million in interest on
       Government funds. In response to our recommendation,        the Director, Defense
       Research and Engineering (DDR&E), agreed to establish policy for research
       “other transactions” requiring the use of interest-bearing accounts whenever
       practical. Contracting officers included the interest provision in 6 of
       60 research “other transactions” and in none of the 11 prototype “other
       transactions” using payable milestone schedules. In addition, research



                                            12
                                              Administering    Other Transactions


participants reinvested interest in the research efforts, and agreement
administrators did not examine consortia claims that retaining Government      funds
in an interest-bearing account would be ineffective.

Interest Income Reinvestment.        The research participants reinvested interest on
excessive DARPA milestone payments in the program for four DARPA “other
transactions. ” Earning interest by participants on milestone payments is
contrary to the goals of the “other transaction” in providing assistance in the
accomplishment of research. In addition, allowing the reinvestment of the
interest into the research effort is in conflict with a DDR&E recommendation       in
response to Report No. 97-l 14 that requires the participant to submit interest to
the U.S. Treasury. For example, DARRA issued “other transaction”
No. MDA972-92-2-0007        for research in developing fiber technology composites
use with gas turbine engine components.        The agreement was for $13 million,
with DARPA funding $6.7 million. DCMC Syracuse, as the administrator of
the agreement, identified that the consortium deposited DARPA milestone
payments in an interest-bearing account. DCMC Syracuse determined that the
interest earned on the excess milestone payments was more than $391,000. In
addition, DCMC Syracuse found that research participants had not contributed
their required cost share because the DARPA payments satisfied all of the
research expenditures.

Another DARPA “other transaction,” No. MDA972-93-2-0008,           valued at
$9.2 million and administered by DCMC Syracuse, required research in new
high-performance   composites material technology.    DARPA agreed to equal
sharing of the research costs with DARPA payments made by quarterly
milestone payments. DCMC Syracuse identified that the consortium maintained
DARPA payments in an interest-bearing account that earned $221,000 in
interest. The consortium reinvested the interest into the research program.

Noninterest-Bearing       Accounts. DCMC agreement administrators allowed
consortia to deposit DARPA milestone payments into noninterest-bearing
accounts based on consortium statements that interest-bearing accounts would
not be cost-effective.     For example, DARPA “other transaction” No. MDA972-
95-3-0029 was for developing the high-resolution and color thin film
electroluminescent     displays. The $29.2 million agreement with equal cost share
was changed by DCMC Seattle officials who required Government funds to be
deposited in an interest-bearing account. The DCMC Seattle official later
allowed the use of a noninterest-bearing    account when the consortium claimed
that bank fees would offset any interest earned. However, the consortium cash
flow statements submitted to DCMC Seattle showed that interest earned
exceeded the bank fees charged. Interest of $9,000 was earned and submitted to
the U.S. Treasury. Discussion with the DCMC Seattle agreement administrator
identified that the administrator did not examine the consortium bank fee claim
before allowing it to use the noninterest-bearing   account.

Although DDR&E plans to issue policy requiring that DOD funds are
maintained in an interest-bearing account, DDR&E needs to issue additional
guidance that prohibits reinvesting the interest earned on DOD funds into
research programs. Although we did not identify that condition with the
prototype “other transactions, ” 11 of 17 prototype agreements used milestone
payment schedules. Those 11 prototype agreements did not contain an interest


                                     13
Administering   Other Transactions


       provision. Therefore, the Director, Defense Procurement, should also issue
       policy for prototype “other transactions” using payable milestone schedules that
       the narticipant deposit the DOD payments in an interest-bearing account and
       submit the’ intereit to the U.S. Treasury. The additional policy is needed
       because Military Departments and Defense agencies are also using of “other
       transactions” for research and prototypes.


Proposal Evaluations

       DDR&E did not require DCMC agreement administrators to review cost
       proposals associated with potential “other transaction” awards, although its
       benefits were demonstrated in a DARPA negotiated “other transaction” issued
       in 1995. In that agreement with the Giant Magnetoresistance Consortium,
       DARPA contracting officials negotiated for research and development for
       magnetic materials and devices having giant magneto resistance. The DARPA
       agreement No. MDA972-95-3-0014,          valued at about $12.2 million, required
       equal cost sharing among DARPA and the research participants.         DCMC
       Syracuse monitored the effort in August 1996. To better understand the
       research effort, DCMC Syracuse agreement administrators reevaluated the cost
       proposal and found that it included profit from the four research participants
       that totaled $501,945. The DARPA award of profit is not appropriate in a cost-
       share agreement, and during the audit, DCMC Syracuse officials discussed the
       profit with DARPA and the research participants to resolve the issue. DDR&E
       still needs to issue guidance to prohibit the award of profit for “other
       transactions. ”



Agreement Modifications

       DARPA was properly distributing “other transaction” modifications to the
       agreement administrators.    DARPA issues agreement modifications to satisfy a
       variety of agreement changes, including scope-of-work revisions, changes in
       research participants or level of participation, and changes in agreement funding
       or cost share. Distributing agreement modifications to the agreement
       administrators is necessary for proper administration.   The DARPA and
       agreement administrator files for 42 “other transactions” for research and
       prototypes delegated to CECOM, the Wright Laboratory, and DCMC had the
       modifications to administer the agreements.


Invoice Certifications

       Government technical representatives properly certified invoices for research
       and prototype agreements before the agreement administrator approved
       payment. The research or prototype participant submits an invoice to the
       agreement administrator requesting payment for completion of a technical
       effort. The agreement administrator requires certification from the Government


                                           14
                                                   Administering    Other Transactions


     technical representative for payment approval, based on satisfactory technical
     accomplishment.     For the 77 “other transactions” reviewed, the Government
     technical representative certified most of the invoices for payment before they
     were approved by the agreement administrator.      When Government technical
     representative approval was not evident, the agreement administrator did not
     retain the approval documentation.    However, one research agreement had
     two invoices that the Government technical representative had not certified
     before payment.


Final Research Reports

     Research participants are required to submit a final research report to the
     Government technical representative and to the Defense Technical Information
     Center (the Center). The final report discloses all major developments during
     the research effort. Research participants are required to submit final reports to
     the Center because the Center acts as the central depository for DOD-funded
     technical efforts. DOD procurement organizations must query the Center’s
     depository before they initiate an acquisition to avoid unnecessarily duplicate
     scientific and engineering efforts. The Center received only 4 of the 21 final
     research reports.

     For example, DARPA entered into “other transaction” No. MDA972-93-2-
     0003, to develop an advanced manufacturing process for vibration control
     devices for defense and nondefense applications.     The DARPA agreement value
     was $9.9 million, with the DARPA contribution being $4.7 million. DCMC
     Seattle was assigned responsibility for administering the agreement in
     October 1995 as the research effort neared completion.      As of October 1997,
     the lead research participant had not submitted the final report, and the research
     group has disbanded. Although DCMC Seattle was withholding the remaining
     $70,000 of the total $4.7 million DARPA payment to encourage the lead
     research participant to submit the final report, receipt of the report is doubtful.

     “Other transactions” that Wright Laboratory issued contain a provision that the
     final agreement payment will not be made until an acceptable final report is
     received. DDR&E should issue policy to require withholding the final
     milestone payments to the research participant until the Government technical
     representative has approved the final report and has submitted the report to the
     Center.


Management       Control Programs

    The Army, the Air Force, and DCMC organizations responsible for the
    administration of “other transactions” need to revise their management control
    programs to include the unique administrative elements of the agreements.   The
    management control programs at CECOM, the Wright Laboratory, and DCMC
    in Seattle and Syracuse include guidance that provides reasonable assurance that
    contracts and grants are effectively managed; however, the management control



                                          15
Administering Other Transactions


      program procedures were not effective in reviewing “other transactions. ”
      Therefore, agreement administrators for “other transactions” were not subject to
      reviews to determine whether they were following internal procedures.



Performance      Measures

      Government Performance Results Act of 1993 (Public Law 103-62) requires
      agencies to establish a system to measure the effectiveness of their programs.
      The Act requires the establishment of annual goals, the establishment of a
      process for performance measurement against the goals, and the establishment
      of a reporting process on the degree to which the goals are met. Although
      DDR&E and the Director, Defense Procurement, are responsible for the
      Military Departments’ and Defense agencies’ use of “other transactions” for
      research and prototypes, respectively, neither DDR&E nor the Director,
      Defense Procurement, had established a system for measuring the performance,
      costs, and benefits derived from the use of the “other transactions.”   DDP has
      initiated a program requiring the Military Departments and Defense agencies to
      report expected benefits versus actual benefits from using a prototype “other
      transaction. ” DDR&E and the Director, Defense Procurement, could establish
      performance measures that include the amount of reduced lead time required to
      award an “other transaction” as opposed to a contract; the number of research
      efforts that continued after DOD funding ended; the number of new products or
      processes established as a result of the “other transaction,” and how well the
      Military Departments and Defense agencies are awarding, managing, and
      competing “other transactions. ” On March 7, 1998, the Acting Director,
      DDR&E, informed us that he planned to establish performance measures and
      metrics for “other transactions” within 120 days.


Yecommendations,          Management           Comments,       and Audit
llesponse

      Deleted Recommendation. As a result of comments to the draft report from
      the Defense Finance and Accounting Service, we deleted the section in the
      finding and the recommendation that discussed the finance center maintaining
      signature cards for verification of invoices submitted for payment. As a result,
      draft report Recommendation     6. has been renumbered to Recommendation    5.

      1. We recommend that the Director, Defense Research and Engineering,
      issue guidance in the DOD Grant and Agreement Regulations for awarding
      and administering research “other transactions” that:

             a. Requires withholding research milestone payments when the
      research participant does not submit technical and business status reports
      and annual program plans within the terms of the agreement.




                                          16
                                             Administering   Other Transactions


Defense Research and Engineering Comments. DDR&E partially concurred,
stating that the agreements officer must have sufficient remedies for
enforcement when a recipient fails to comply with the terms of an agreement.
DDR&E stated that guidance should not mandate the use of one remedy and
should provide the latitude to exercise good business judgment and select the
most appropriate remedy in each circumstance.     DDR&E stated that the interim
guidance makes available a range of remedies but agreed to issue a clarification
of the remedies available to agreement administrators.

       b. Requires the research participant to submit business status
reports that identify research expenditures by participant, milestone, or
task, and that identify expenditure variances in relation to the research
Annual Program Plan.

Defense Research and Engineering Comments. DDR&E partially concurred,
stating that periodic reports are necessary for stewardship but should not be
mandated in every case as described in the recommendation.      DDR&E agreed to
issue guidance that permits the agreements officer to require business status
reports to include such details needed for good stewardship after consultation
with the program official. DDR&E will also issue guidance stressing the
importance of clearly communicating the reporting requirements to the office
responsible for agreement administration.

      c. Requires the adjustment of payable milestone schedules when
DOD reimbursement unreasonably exceeds actual cost.

Defense Research and Engineering Comments. DDR&E concurred and
stated that guidance issued on March 24, 1998, provides the necessary
instructions in monitoring the payable milestone schedules.

       d. Requires the research participant to submit the Annual Program
Plan to the agreements administrator responsible for monitoring the effort.

Defense Research and Engineering      Comments.    DDR&E concurred      and will
issue the appropriate guidance.

       e. Prohibits the investment of interest on DOD funds in research
programs.

Defense Research and Engineering Comments. DDR&E concurred,              stating
that guidance issued in March 24, 1998, satisfies the intent of the
recommendation.

     f. Encourages the use of the Defense Contract Management
Command in reviewing “other transaction” cost proposals.

Defense Research and Engineering Comments. DDR&E concurred in
principle with the recommendation but stated that additional guidance is not
required because general guidance has already been issued stating that DCMC is
a valuable source of expertise in preaward and postaward functions.




                                    17
Administering Other Transactions


             g. Prohibits the award of cost-of-money and profit for “other
      transactions.”

      Defense Research and Engineering Comments. DDR&E partially concurred,
      stating that it agrees with providing guidance that prohibits the payment of
      profit on assistance instruments; however, DDR&E stated that disallowing cost-
      of-money for “other transactions” would be inconsistent with Government
      guidance on other Federal assistance agreements.

              h. Requires withholding a substantial amount of the final milestone
      payment until the Government technical representative has approved the
      final technical report and the research participant has submitted the
      technical report to the Defense Technical Information Center.

      Defense Research and Engineering Comments. DDR&E partially concurred,
      stating that the submission and receipt of the final technical report should be
      outlined in the initial agreement and be incorporated as one of the payable
      milestone events, and DDR&E will issue guidance to make that a requirement.
      However, DDR&E stated that payment should be predicated only on acceptance
      by the Government representative.

      Audit Response. Comments provided by DDR&E were responsive to the
      intent of the recommendations.        We agree with DDR&E that cost-of-money is a
      legitimate cost for “other transactions” and that DDR&E should state that when
      issuing its policy in response to Recommendation          1 .g. We request DDR&E to
      provide comments to the final report that identify when the policy for
      Recommendations      1 .b., 1 .d., 1 .g., and 1 .h. will be issued.

      2. We recommend that the Directors, Defense Research and Engineering
      and Defense Procurement, establish an integrated process team to develop
      quantifiable performance measures and metrics for “other transactions”
      for research and prototypes.

      Defense Research and Engineering Comments. DDR&E concurred and
      stated that he will try to develop ways to assess the value of “other
      transactions, ” although the measure may include both qualitative and
      quantifiable methods. DDR&E is participating with DDP as a team member in
      developing the metrics.

      Defense Procurement Comments. DDP concurred and stated that she has
      been participating as a team member to develop quantifiable metrics for “other
      transactions” for prototypes.

      Audit Response. Comments provided by DDR&E and DDP were responsive
      to the intent of the recommendations. However, we request additional
      comments from DDR&E and DDP that identify when they will establish “other
      transaction” performance measures.




                                           18
                                             Administering Other Transactions


3. We recommend that the Director, Defense Procurement, issue policy for
prototype “other transactions” that:

       a. Requires the withholding of prototype milestone payments when
the prototype participant does not submit technical and business status
reports and annual plans within the terms of the agreement.

Defense Procurement Comments. DDP partially concurred, stating that she
agrees that appropriate actions should be taken when the terms of the agreement
are not met but that withholding milestone payments may not necessarily be the
appropriate action. DDP stated that the appropriate actions should be left to the
discretion of the agreement administrator and that DDP will issue guidance on
the possible actions that should be taken when the agreement terms are not met.

       b. Requires the participant to submit the Annual Program Plan to
the organization responsible for monitoring the prototype effort.

Defense Procurement Comments. DDP partially concurred,         stating that DDP
will issue guidance that requires the agreement administrator to receive reports
needed for administering the agreements but does not believe that every
prototype agreement should require an annual program plan.

       c. Requires the participant to maintain DOD funds in an interest-
bearing account and submit the interest to the U.S. Treasury when the
prototype “other transaction” uses performance payable milestones.

      d. Emphasizes the need to adjust payable milestone schedules when
DOD reimbursement unreasonably exceeds actual cost.

Defense Procurement Comments. DDP partially concurred with
Recommendations    3.~. and 3.d. stating that the recommendations assume that
milestone payments are intended to track with expenditures.    DDP stated that
when risk is low, fixed-price type milestone payments may be established, and
in those cases, payments and expenditures may not necessarily track and
payment adjustments are not necessary. However, DDP stated that she will
issue guidance to adjust payments where appropriate when payments are
intended to track with expenditures.

        e. Requires withholding a substantial amount of the final milestone
payment until the Government technical representative has approved the
final technical report and the report is submitted to the Defense Technical
Information Center.

Defense Procurement Comments. DDP partially concurred, stating that if the
final report is a significant requirement in the agreement, the acceptance of the
report should be incorporated as a condition in one of the payment milestones.
DDP will issue guidance that states that if the report is not delivered, the
milestone payment should be adjusted accordingly.




                                    19
Administering   Other Transactions


       Audit Response. Comments provided by DDP were responsive to the intent of
       the recommendations.    However, additional comments from DDP to the final
       report are requested that identify when the policy will be issued. In addition,
       DDP did not respond to Recommendation       3.~. . and therefore, we request
       comments to that recommendation.

       4. We recommend that the Commander, Army Communications -
        Electronics Command, require technical and business status reports in all
       “other transactions” that the agency issues.

       Army Comments. The Office of the Assistant Secretary of the Army
       (Research Development and Acquisition) partially concurred and stated that it
       agrees that technical and business status reports are necessary and the reports
       will be required for all “other transactions” issued by the Army. However, the
       Army stated that it disagrees with mandating the detail reports (as identified in
       Recommendation      1 .b.) because such detail may not be needed by the
       agreements administrator.

       Audit Response. Comments provided by the Army Assistant Secretary
       (Research Development and Acquisition) were responsive to the intent of the
       recommendation.   We agree that only necessary information should be
       provided.

       5.  We recommend that the Commander, Army Materiel Command; the
       Commander, Air Force Materiel Command; and the Director, Defense
       Logistics Agency, include the administrative process of “other transactions”
       in their management controls programs.

       Army Comments. The Office of the Assistant Secretary of the Army
       (Research Development and Acquisition) partially concurred and stated that the
       inclusion of a formal checklist is dependent upon comments provided by
       DDR&E and DDP and whether they accept the actions included in the
       recommendations.     However, the Army will provide a copy of the final report
       to all affected Army organizations alerting them to the Inspector General, DOD,
       recommendations.

       Air Force Comments.      The Air Force concurred   and agreed to take actions
       accordingly.

       Defense Logistics Agency Comments. The Defense Logistics Agency
       concurred and agreed to take actions accordingly.

       Audit Response. Comments provide by the Assistant Secretary of the Army
       (Research Development and Acquisition) were not fully responsive.      This
       recommendation was made to require organizations to include in their
       management control programs reviews of the administration of “other
       transactions” to evaluate whether agreement administrators are properly
       overseeing these efforts. This audit identified areas that needed improvement.




                                           20
                                          Administering   Other Transactions


We believe the inclusion of “other transactions” in organizations’ management
control programs should not be totally dependent upon DDR&E or DDP issuing
guidance on recommendations    in this report. The inclusion of “other
transactions” in the management control reviews would be an addition to
reviews already being conducted on other procurement instruments.      The
comments received from DDR&E and DDP on this report should assist the
Army in developing guidance to include “other transactions” in the management
control program. Therefore, we request that Assistant Secretary (Research
Development and Acquisition) reconsider his position and provide comments to
the final report.




                                  21
Part II - Additional Information
Appendix A. Audit Process

Scope

        Work Performed. We performed this audit from July 1997 through
        February 1998. To accomplish the audit objective, we reviewed 60 research
        (10 U.S.C. 2371) agreements, valued at $1.2 billion, and 17 prototype
        (Section 845) agreements, valued at $0.5 billion. The “other transactions”
        agreements were issued from October 1, 1992, through June 30, 1997, by either
        DARPA, CECOM, or Wright Laboratory. We did not review “other
        transactions” issued by the Navy or Defense agencies because of the limited
        number of “other transactions” that they issued at the time of our audit
        selection. The Military Departments and the Defense agencies did issue
        43 “other transactions”; however, 41 agreements were awarded in the fourth
        quarter of FY 1997. We also did not review “other transactions” that were
        bailment agreements or no-cost research efforts.

        DOD-wide Corporate Level Government Performance and Result Act Goals.
        In response to the Government Performance and Results Act, the DOD has
        established 6 DOD-wide corporate level performance objectives and 14 goals for
        meeting those objectives. This report pertains to achievement of the following
        objective and goal:

               Objective: Fundamentally        reengineer   the DOD and achieve a
               2 1st century infrastructure.

               Goal Reduce costs while maintaining required military capabilities
               across all DOD mission areas. (DOD-~)

        DOD Functional Area Reform Goals. Most major DOD functional areas have
        also established performance improvement reform objective and goals. This
        report pertains to achievement of the following functional area objective and
        goal :

               Objective: Internal reinvention.

               Goal Eliminate layers of management by streamlining processes while
               reducing the DOD acquisition-related workforce by 15 percent.
               (ACQ3.1)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DOD. This report provides coverage
    of the Defense Contract Management high risk area.




                                               24
                                                       Appendix A. Audit Process


Methodology

     We reviewed policies and procedures applicable to the administration of “othet
     transactions; ” examined selected “other transaction” agreements; reviewed
     contracting officer, Government technical representative, and agreement
     administrator files; and conducted interviews with officials responsible for
     monitoring research efforts. Specifically, we:

            o reviewed guidance issued by DARPA, the Air Force, and DCMC in
     the administration of “other transactions”;

             o reviewed judgmentally    selected DARPA, CECOM,     and Wright
     Laboratory “other transactions”;

              o reviewed the receipt of status reports and annual program plans,
     examined agreement administrator files for correspondence to determine level of
     administration, examined cost reporting by research and prototype
     participant(s), examined the monitoring of expenditure variance, examined
     processing of agreement modifications, reviewed the agreement administrator
     processing of invoices, and the submission of final research reports; and

            o interviewed DARPA, CECOM, Wright Laboratory,         and DCMC
     agreement administrators and technical representatives.

     We also reviewed the payment process at Defense Finance and Accounting
     Service - Indianapolis to determine whether duplicative payments were made on
     “other transactions. ”

     Use of Computer-Processed Data. We did not rely on computer-processed
     data during the review of the administration of “other transactions” at DARPA.
     CECOM, Wright Laboratory, or DCMC. We did rely on computer-processed
     data during our review of duplicative payments at the Defense Finance and
     Accounting Service - Indianapolis without testing the system to confirm the
     reliability of the data. At the Defense Finance and Accounting Service -
     Indianapolis, we used the Commercial Accounts Processing System. However.
     in reviewing the Defense Finance and Accounting Service data, we did not
     identify any inaccuracies in the information obtained from the database.

     Auditing Period and Standards.     We performed this program results audit in
     accordance with auditing standards issued by the Comptroller General of the
     United States, as implemented by the Inspector General, DOD. We included
     tests of management controls considered necessary.




                                         25
Appendix A. Audit Process



Contacts During the Audit

      We visited or contacted individuals and organizations   within DOD. Further
      details are available upon request.


Management        Control Program

      DOD Directive 5010.38, “Management Control (MC) Program,” August 26,
      1996, requires DOD organizations to implement a comprehensive system of
      management controls that provides reasonable assurance that programs are
      operating as intended and to evaluate the adequacy of the controls.

      Scope of Review of Management Control Program. We reviewed the
      management control programs at the CECOM, Wright Laboratory, the DCMC
      centers at Seattle and Syracuse, and the Defense Finance and Accounting
      Service - Indianapolis.  We examined the CECOM, Wright Laboratory,
      DCMC, and Defense Finance and Accounting Service - Indianapolis
      management control assessments and the reports issued to their higher
      commands.     We did not review the management control program at DARPA
      because of prior coverage in Report No. 97-l 14, “Award and Administration of
      Contracts, Grants, and Other Transactions Issued by the Defense Advanced
      Research Projects Agency,” March 28, 1997.

      Adequacy of Management Controls. We identified material management
      control weaknesses as defined in DOD Directive 5010.38 in the administration
      of “other transactions” in that the established management control programs did
      not include the unique administrative functions that “other transaction”
      agreements contain. The “Administration of Other Transactions” finding in this
      report identified areas in which the administration of “other transactions”
      needed improvement.      Recommendations     5 and 6 will correct the identified
      weaknesses.

      The recommendations     could result in future potential benefits, but we could not
      determine the amount. A copy of the report will be provided to the senior
      official responsible for management controls in the Army, the Air Force,
      DCMC, and the Defense Finance and Accounting Service - Indianapolis.

      Adequacy of Management’s Self-Evaluation. The CECOM, the Wright
      Laboratory, and the DCMC Centers Seattle and Syracuse had established
      effective management control programs within their organizations.    The
      management control programs provided reasonable assurance the contracts and
      grants were effectively managed; however, the management control program
      procedures were not effective in reviewing “other transactions. ” The
      management control programs were not effective for “other transactions”
      because “other transactions” were not identified as an assessable unit and,
      therefore, CECOM, the Wright Laboratory, and the DCMC Centers Seattle and
      Syracuse management did not perform evaluations of the administration of the
      agreements.


                                           26
                                                        Appendix A. Audit Process


Summary of Prior Coverage

    During the last 5 years, two reports were issued on using “other transactions.”
    The General Accounting Office issued a report discussing nontraditional
    instruments that DARPA used to acquire research. The Inspector General,
    DOD, issued a report on the DARPA contracting method, and one of the
    findings discussed “other transactions.”

    General Accounting Office, National Security and International Affairs
    Division 96-11 (OSD Case No. 1074), “DOD Research, Acquiring Research
    by Nontraditional Means,” March 29, 1996.

    Inspector General, DOD, Report No. 97-114, “Award and Administration
    of Contracts, Grants, and Other Transactions Issued by the Defense
    Advanced Research Projects Agency,” March 28, 1997.




                                        27
Appendix        B. Other Transactions                          Reviewed


   Administerine Office: Defense Advanced Research Proiects    Agency

                           10 U.S.C.   2371 (Research)
   Type  of                                                               Value of
   Instrument            Consortium    or Contractor   Name             Instrument

    MDA972-

   92-H-000 1      Intel Corporation                                    98,241,500
   92-H-0002       Cray Research Incorporated                           12,700,000
   92-H-0010       Optical Network Technology Consortium                24,225,552
   93-H-0005       Materials Synthesis Processing Consortium            10,275,OOO
   93-2-0013       Display Materials Consortium                          4,205,166
   93-2-0017       Cray Research Incorporated                           25,965,OOO
   94-2-0011       Boeing Company (Defense and Space Group)             37,348,500
   94-3-0034       Solid State Oxygen Generators Consortium                310,813
   94-3-0038       The Parallel Optical Link Organization
                   Consortium                                            17,545,225
    94-3-0044      Aircraft Surface Contamination  Detection
                   Consortium                                            2,606,906
    95-3-0002      Submerged Electric-Drive Cargo Pump
                   Commercial Spin-Off Consortium                     8,810,482
    95-3-0006      Hewlett-Packard Incorporated                       7,240,OOO
    95-3-0033      American Waterways Shipyard Consortium                162,200
    96-3-0013      Allison Engine Company                            27.546. I1 1
     Total                                                         $277,182,455




                                             28
                                        Appendix B. Other Transactions                Reviewed


Administering Office: Defense Advanced Research Proiects Agency (Cont’d)

                 10 U.S.C.   2371. Section 845 (Prototvne)
Type of                                                                Value of
Instrument            Consortium    or Contractor   Name             Instrument

MDA972-

94-3-0042      Lockheed Advanced Development Company                 191,650,OOO
95-3-0009      Loral Systems Company                                    4,000,000
95-3-0010      Raytheon Advanced Systems Company                        3,973,188
95-3-0011      Orbital Sciences Corporation                             3,998,790
95-3-0012      GN~I~Z~I Aerospace Company                               3,990,598
95-3-0013      Teledyne Industries                                    161,348,OOO
95-3-0034      Westinghouse Electric Corporation                        8,751,307
96-C-0006      E-Systems Incorporated                                  32,446,945
96-C-0802      Lockheed Martin Corporation                             16,000,000
96-C-0803      Bath Iron Works Corporation                             16,000,OOO
96-C-0804      Hughes Aircraft Company                                   1 ,ooo,OOO
96-C-0805      Metro Machine Corporation                                 1,ooo,OOO
96-C-0806      Northrop Grumman Corporation                            16,000,OOO
97-C-0804      L-3 Communications                                        2.6 16,000
 Total                                                               $462,774,828




Administerinn Office: Armv Communications - Electronics Command

                        10 U.S.C.    2371 (Research)
Type of                                                                Value of
Instrument            Consortium    or Contractor   Name             Instrument

MDA972-

94-3-002 1     EcoScan Consortium                                $  3,877.OOO
94-3-0036      Wireless Communication      Engine Consortium        7,910.000
 Total                                                           $ 11,787,OOO

                        10 U.S.C.    2371 tResearchl
DAAB07-

96-3-D758      Digital Wireless Communications                   $ 15,036,810
96-3-D759      Wireless Interworking Testbed Consortium             2,870,OOO
96-3-D760      Handheld Multi-Media Terminal Consortium             6,897,908
96-3-JO16      Diffractive Optics Technology Consortium            14,593,574
96-3-JO17      Hybrid Diffractive/Refractive Optics Consortium      2,648,235
96-3-JO20      Consortium for Electron Bombarded Coupled
               Charged Device Camera                                2.886.863
 Total                                                           $ 44,933,390

                                          29
Appendix B. Other Transactions           Reviewed




      Administerinn Of’fice: Air Force Wright Laboratory

                               10 U.S.C.    2371 (Research)
      Type of                                                              Value of
                            Consortium     or Contractor   Name          Instrument

      MDA972-

      93-2-0007      Low-Cost Ceramic Composites Virtual
                     Consortium                                      $     14,627,922
      93-2-0016      Optical Imaging Systems Incorporated                 100,743,992
      94-3-0013      Coltec Industries                                      4,499,279
      94-3-00 14     The Fly-try-Light Advanced Systems
                     Hardware Team                                         24,325,060
      94-3-0015      Electronic Actuation and Control System
                     Consortium                                            13,080,000
      94-3-0016      Analog Optoelectronic Module Consortium               18,817,981
      95-3-0001      Wafer Level Known Good Die Consortium                  2.305.000
       Total                                                             $178,399,234



                         10 U.S.C.   2371. Section 845 (Prototvnel
      F33615

      97-4-5 130     Scaled Composites     Incorporated              $     12,003,997




                                                30
                                         Appendix B. Other Transactions             Reviewed




Administerinn Offke: Defense Contract Management Command Seattle

                           10 USC.   2371 1Research)
Type of                                                                 Value of
                     Consortium      or Contractor     Name           Instrument

MDA972-

93-2-0003     Smart Materials and Structures Consortium      $ 9,940,OOo
94-2-0005     Northeast Alternative Vehicle Consortium         30,305,725
94-3-0025     In-Situ Process Control Consortium                4,892,OOO
94-3-0030     Advanced Composites Technology Transfer/Bridge
              Infrastructure Renewal Consortium                40,305.324
94-3-0033     Synchronous Optical Network/Asynchronous
              Transfer Mode Self-Healing Ring Consortium       18,678,553
95-3-0004     National Storage Industry Consortium             32,152.167
95-3-0022     Uncooled Low-Cost Technology Reinvestment
              Alliance Consortium                               7,673.751
95-3-0025     Todd Pacific Shipyards Corporation                5,793,836
95-3-0029     Next-Generation    Display Consortium            45,321,937
95-3-0030     Thin Cathode Ray Tube Consortium                 50,318,327
95-3-003 1    Low-Cost Flip Chip Consortium                    21,097,981
95-3-0036     Flexible Thin Film Copper Indium
              Diselenide Photovoltaics Vapor Phase
              Manufacturing   Consortium                       27,630,319
96-3-0001     Microwave and Analog Front End Technology
              Design Environment Consortium                    58,974,653
96-3-0002     Processor Applications Electronics Consortium      8,464,800
97-3-0008     Parallel Optics for Network Interconnects
              Consortium                                       23.576.973
 Total                                                            $385,126,346

                 10 U.S.C.    2371. Section 845 (Prototvne)
MDA972-

96-C-0800      Conformal     Optics Technology       Consortium   $    12,340,581




                                           31
Appendix B. Other Transactions          Reviewed




      Administerine Office: Defense Contract Management Command Svracuse

      Type of                                                               Value of
      Instrument           Consortium    or Contractor   Name             Instrument

                             10 U.S.C.    2371 (Research)
      MDA972-

      92-2-0007     The Integrated High Performance Turbine
                    Engine Technology Fiber Development
                    Consortium                                      $ 12,312,501
      93-2-0008     High-Performance     Composites Consortium          9,158,593
      93-H-0001     The Investment Casting Cooperative Arrangement     16,712,783
      93-H-0002     Ferrite Development Consortium                     16,919,OOO
      94-3-0018     Air Quality Monitoring Consortium                   3,774,817
      94-3-0028     Digital X-Ray Team                                 27,139,640
      94-3-004 1    Diamond Film Process Development Consortium        16,209,289
      94-3-0047     National Academic Center Information Consortium    10,484,377
      95-3-0014     Giant Magnetoresistance     Consortium             12,258,OOO
      95-3-002 1    Consortium for Vehicle Electronics                 11,965,912
      95-3-0032     Clay Research Incorporated                         60,000,000
      95-3-0042     Seamless High Off-Chip Connectivity Consortium     24,977,256
      96-3-0008     Nondestructive Evaluation of High Performance
                    Composites Alliance                                  1,400,696
      96-3-0010     Clay Research Incorporated                         25,184,OOO
      96-3-0018     Osiris Therapeutics                                 6,638,999
      96-3-0019     Superconducting    Filters for Base Station
                    Applications Consortium                             5.969.190
       Total                                                        $ 261,105,053

                        10 U.S.C.   2371, Section 845 (Prototvne)
      MDA972-

      97-C-0800     Advanced Logistics Program Integration      and
                    Engineering Consortium                            $    59,600,000




                                               32
Appendix C. Summary of Other Transactions Issues

Defense Advanced Research Protects Agency

Agreement            Renorts on Hand     Business Renort    Interest    Annual    All Mods’               Research   DTIC’ Has
Number                 Tech-    Busi-    Shows Cost bv     Clause in     Plan        in        MIS3         Effort     Final
MDA972- m              nical    ness    Participant m      Agreement   Received    F&s        Certified   Comnlete    Renort

92-H-0001    2371       Yes     Yes       Yes       Yes      No          No        Yes          Yes         Yes         No
92-HXKlO2    237 1      Yes     Yes       Yes       Yes      No          No        Yes          Yes         Yes         No
92-HM)lO     237 1      Yes     Yes       Yes       Yes      No         Yes        Yes          Yes         Yes         No
93-2-0013    237 1      Yes     No        Yes       Yes      No          No        Yes          Yes         Yes         No
93-2-0017    2371       Yes     Yes       Yes       Yes      No         N/R4       Yes          Yes         Yes        N/As
93-H-0005    237 1      Yes     Yes       YeS       YeS      No         Yes        Yes          Yes         Yes         No
94-2M)ll     2371       Yes     Yes       YeS       Yes      No         Yes        Yes          Yes         Yes         No
94-3-34      237 1      Yes     No        No        No       Yes        Yes        Yes          Yes         Yes        Yes
94-3-0038    237 1      Yes     Yes       Yes       Yes      No         Yes        Yes          Yes         Yes         No
94-3-0042     845       Yes     Yes       YeS       Yf3S     N/A        N/R        Yes          Yes         Yes        N/A
94-3-0044    2371       No      No        No        No       No          No        Yes          Yes         Yes        Yes
95-3-0002    237 1      Yes     Yes       YeS       Yes      No         Yes        Yes          Yes         No         N/A
95-3-0006    2371       Yes     Yes      No         No       No         Yes        Yes          Yes         No         N/A
95-3-OfKt9    845       Yes     Yes      Yes        Yes      No         N/R        Yes          Yes         Yes        N/A
95-3-0010     845       Yes     Yes      YttS       YeS      No         N/R        Yes          Yes         Yes        N/A
95-3-0011     845       Yes     Yes      Yes        Yt?S     No         N/R        Yes          Yes         Yes        N/A
95-3-0012     845       Yes     N/R      N/A        N/A      No         N/R        Yes          Yes         Yes        N/A
95-3-0013     845       Yes     Yes      Yes        No       N/A        Yes        Yes          Yes         No         N/A
95-3-0033    237 1      Yes     Yes      Yes        Yes      No         Yes        Yes          Yes         Yes         No
95-3-0034     845       Yes     Yes      Yes        Yes      N/A        Yes        Yes          Yes         No         N/A
96-3-0013    2371       Yes     Yes      Yes        No       No         Yes        Yes          Yes         No         N/A
96-C-0006     845       Yes     Yes      Yes        Yes      N/A        N/R        Yes          Yes         No         N/A
96-C-0802     845       Yes     Yes      Yes        Yes      No         Yes        Yes          Yes         Yes        N/A
96-C-0803     845       Yes     Yes      Yes        Yes      No          No        Yes          Yes         Yes        N/A
96-C-0804     845       Yes     Yes      Yes        Yes      No         N/R        N/A          Yes         Yes        N/A
Defense Advanced Research Projects Agencv (Cont’d)

Agreement            Reports on Hand         Business Report    Interest     Annual    All Mods’               Research   DTIC Has
Number                 Tech-    Busi-        Shows Cost by      Clause in     Plan         in        MIS         Effort     Final
MDA972-      m          nical   neSS        Participant m      Agreement    Received     Files     Certified   Complete    Report

96-C-0805    845        Yes       Yes         Yes        Yes       No         N/R        Yes          Yes         Yes       N/A
96-C-0806    845        Yes       Yes         Yes        Yes       No         N/R        Yes          Yes         Yes       N/A
97-C-0804    845        Yes       Yes         Yes        Yes       No         N/R        N/A          Yes         Yes       N/A



Army Communications       - Electronics   Command

Agreement            Reports on Hand         Business Report    Interest     Annual    All Mods’               Research   DTIC Has
Number                 Tech-    Busi-        Shows Cost by      Clause in     Plan         in        MIS         Effort     Final
             m          pi&     ness        Participant Task   Agreement    Received    m          Certified               Report

DAABO’I-
96-3-D758    237 1      Yes       Yes        Yes         Yes       No         Yes        Yes         Yes          No        N/A
96-3-D759    237 I      No        No         Yes         No        No          No        Yes         Yes          No        N/A
96-3-D760    237 1      Yes       Yes        YeS         No        No         Yes        Yes         Yes          No        N/A
96-3-JO16    2371       No        N/R        N/A        N/A        No         Yes        Yes         Yes          No        N/A
96-3-JO17    2371       Yes       N/R        N/A        N/A        No         N/R6       Yes         No            No       N/A
96-3-JO20    2371       N/R       N/R        N/A        N/A        No          No        Yes         Yes           No       N/A

MDA972-
94-3-002 1   237 1      No        No          No         No        No          No        Yes          Yes         YeS       No
94-3-0036    2371       Yes       Yes         Yes        Yes       No          No        Yes          Yes         No        N/A
Air Force Wright Laboratory

Agreement            Reports on Hand     Business Renort   Interest     Annual    All Mods’               Research   DTIC Has
                                Busi-    Shows Cost by     Clause in     Plan         in        MIS         Effort     Final
                                ness    Particinant JkJ                Received    j%&s       Certified               Report

F33615
97-4-s 130   845        Yes      Yes      Yes        No      N/A         N/R        N/A         Yes           No       N/A

MDA972-
93-2-0007    237 1      Yes      No       No         No       No         Yes        Yes         Yes          Yes       N/A
93-2-0016    2371       Yes      YeS      Yes        Yes      No         Yes        Yes         Yes          No        N/A
94-3-0013    2371       Yes      Yes      Yes        Yes      No         Yes        Yes         Yes          Yes       Yes
94-3-0014    237 1      Yes      Yes      Yes        YeS      No         Yes        Yes         Yes          Yes        No
94-3-0015    2371       Yes      Yes      Yes        Yes      No         Yes        Yes         Yes           No       N/A
94-3-0016    2371       Yes      Yes      Yes        No       No         YeS        Yes         Yes           No       N/A
95-3-0001    237 1      Yes      Yes      Yes        No       No         No         Yes         Yes           No       N/A
Defense Contract Management Command Seattle

Agreement            Retxxts on Hand     Business Renort    Interest    Annual    All Mods’               Research   DTIC Has
Number                 Tech-    Busi-    Shows Cost by     Clause in     Plan        in         MIS         Effort     Final
MDA972-   m            nical    ness    Participant Task   Agreement   Received    Fi&s       Certified   Complete    Revort

93-2-0003    2371       Yes     Yes       Yes       Yes       No         No        Yes          Yes         YeS         No
94-2-0005    237 1      Yes     Yes       No        No       No          No        Yes          Yes         No         N/A
94-3-0025    237 1      Yes     Yes       No        No       No          Yes       Yes          Yes         No         N/A
94-3-0030    237 1      Yes     Yes       Yes       Yes      Yes         Yes       Yes          Yes         No         N/A
94-3-0033    237 1      Yes     Yes       Yes       No        No         No        Yes          Yes         No         N/A
95-3-0004    2371       Yes     Yes       Yes       No        No         Yes       Yes          Yes         No         N/A
95-3-0022    237 1      Yes     Yes       No        No        No         No        Yes          Yes         Yes        No
95-3-0025    237 1      Yes     Yes       No        No       No          Yes       Yes          Yes          No        N/A
95-3-0029    2371       Yes     Yes       Yes       No       Yes         Yes       Yes          Yes          No        N/A
95-3-0030    2371       Yes     Yes       Yes       No       No          No        Yes          Yes          No        N/A
95-3-003 I   237 1      Yes     Yes       Yes       No       Yes         No        Yes          Yes          No        N/A
95-3-0036    2371       Yes     Yes       Yes       No        No         No        Yes          Yes          No        N/A
96-3-0001    2371       Yes     Yes       Yes       No        No         Yes       Yes          Yes          No        N/A
96-3-0002    237 1      No      No        No        No        No         No        Yes          Yes          No        N/A
96-C-0800     845       Yes     Yes      Yes        No        No         No        Yes          Yes          No        NIA
97-3-0008    237 1      N/A     N/A      N/A        N/A       No         N/R       N/A          Yes          No        N/A
Defense Contract Management       Command     Syracuse

Agreement             Renorts on Hand        Business Report      Interest    Annual    All Mods’                  Research   DTIC Has
Number                  Tech-    Busi-       Shows Cost by       Clause in     Plan         in           MIS         Effort     Final
MDA972-       m          nicaJ   m          Particinant m        Agreement   Received     Fi&          Certified   Comnlete    Renort

92-H-0007     237 1      Yes      Yes         Yes        Yes       No          Yes         Yes           Yes          Yes       No
93-2-0008     2371       Yes      Yes         Yes         No       Yes         No          Yes           Yes          Yes       No
93-H-0001     237 1      Yes      Yes         Yes        Yes        No         Yes         Yes           Yes          No        N/A
93-H-0002     2371       Yes      Yes         No         NO         No         Yes         Yes           Yes          Yes       No
94-3-0018     2371       Yes      Yes         Yes        Yes       No          No          Yes           Yes          Yes       No
94-3-0028     237 1      Yes      Yes         Yes         No       No          Yes         Yes           Yes          No        N/A
94-3-0041     2371       Yes      Yes         Yes        Yes        No         Yes         Yes           Yes          No        N/A
94-3-0047     237 1      Yes      Yes         Yes        No        No          Yes         Yes           Yes          Yes       N/A
95-3-0014     2371       Yes      Yes         Yt3S       No        No          Yes         Yes           Yes          No        N/A
95-3-002 1    237 1      Yes      Yes         No         No        No          Yes         Yes           Yes          Yes       Yes
95-3-0032     237 1      Yes      Yes         Yes        No         No         No          Yes           Yes          Yes       No
95-3-0042     2371       Yes      Yes         Yf3.S      Yf?S      Yes         Yes         Yes           Yes          No        N/A
96-3-0008     237 1      Yes      Yes         Yes         No       No          Yes         Yes           Yes          No        N/A
96-3-0010     2371       Yes      Yes         No          No       No          Yes         Yes           YeS          No        N/A
96-3-0018     2371       No       NO          No          No        No         No          Yes           Yes          No        N/A
96-3-0019     2371       Yes      Yes         YeS         No       No          No          Yes           Yes          No        N/A
97-C-t-)800    845       Yes      Yes         Yes        Yes       N/A         Yes         Yes           Yes          No        N/A

FOC’                    69175    64172       58172       36172     6171       39/638      73173         76177        35177      4121
POF9                      92       89          81          50        8          62         100           99           45         19


’ Modifications.
* Defense Technical Information Center.
’ Milestones certified by project manager, payment approved by agreement administrator or contracting officer.
’ Not required.
5 Not applicable.
’ Work effort suspended, pending revision to statement of work.
’ Frequency of occurrences.
* Agreements administered: for DARPA, 24 of 41, or 59 percent; by DARPA, 12 of 17, or 71 percent.
’ Percent of frequencies.
Appendix D. Report Distribution


Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Defense Research and Engineering
Assistant Secretary of Defense (Public Affairs)
Deputy Under Secretary of Defense (Acquisition Reform)
Director, Defense Procurement


Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Research, Development, and Acquisition)
Commander, Communications - Electronics Command
Auditor General, Department of the Army


Department        of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy


Department of the Air Force
Offke of the Assistant Secretary (Acquisition)
Assistant Secretary of the Air Force (Financial Management    and Comptroller)
Director, Air Force Materiel Command
Commander, Air Force Research Laboratory
Auditor General, Department of the Air Force




                                            38
                                                      Appendix D. Report Distribution




Other Defense Organizations
Director, Defense Advanced Research Projects Agency
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency
   Director, Defense Contract Management Command
       Director, Defense Contract Management Command - Seattle
       Director, Defense Contract Management Command - Syracuse
   Director, Defense Supply Service
Director, National Imagery and Mapping Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency


Non-Defense        Federal Organizations             and Individuals
OfIice of Management and Budget
Technical Information Center, National Security and International   Affairs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional      committees
and subcommittees:

   Senate Committee on Appropriations
   Senate Subcommittee on Defense, Committee on Appropriations
   Senate Committee on Armed Services
   Senate Committee on Governmental Affairs
   House Committee on Appropriations
   House Subcommittee on National Security, Committee on Appropriations
   House Committee on Government Reform and Oversight
   House Subcommittee on Government Management, Information, and Technology,
      Committee on Government Reform and Oversight
   House Subcommittee on National Security, International Affairs, and Criminal Justice,
      Committee on Government Reform and Oversight
   House Committee on National Security




                                            39
Part III - Management   Comments
Defense Research and Engineering Comments


               DIRECTOR      OF DEFENSE RESEARCH AND ENGINEERING
                                  x)3Q DEFENSE PENTAGON
                                   WASHINGTON.    DC.   ZDXO-3050




      MEMORANDUM         FOR ASSISTANT INSPEflOR            GENERAL (AUDITING)

      SUBJECT: Drab Report on Financial and Cost Aspects of Other T~~~SZUZ~~OIIS



           The attachment to this memorandum provides comments on recommendations 1.a.
      through I .h. and recommendation 2 of a draft report entitled “Financial and Cost AspIs
      of Other Transactions.” The draft report is dated April 16, 1998. and is associatedwith
      Project Number 7ABM)5 1. In addition to the attachcd. formal comments on the
      recommendations, please consider informal suggestionsfor the text of the report that stat3
      members of this offi separately provided to you,

           J appreciate having this opportunity to comment on the draft report.




                                                   Lance A. Davis
                                                   Acting


      Attachment




                                          42
                                       Defense Research and Engineering Comments




         COMMENTS ON RECOMMENDATlONS 1.a.THROUGH Lb. AND
     RJKOMMENDATION 2. OF DW   INSPECTOR GENERAL REPORT FOR
                         PROJECT 7AB-0051


The targetcompletiondate for actionsresultingtium the rqonaea below would be late 1998,
throughupdatecto the interim DDRBEguidam~fbr TechnologyInvestmentAgreementa That
guidanceappliesto the type of “othertransaction”for researchthat is describedin the draftOIG
nport.

B                    We recommendthatthe Dir&or, DefenseResearchand Engineering
@DR&E)issue guidancein the DODGrant and AgreementRegulationsfor awardingand
administeringmsearcb“othertransactiona”that requiresthe withholdingof researchmilestone
paymentswhen the researchparticipantdoeanot submit technicaland business statusreportsand
annual programplans within the termsof the agreement.

    u:           The DDR&Epartiallyconcurs. The DoDguidancemust providethe agreements
    officerwith auffkient remediesforthe purposesof enforcementwhen a recipient fails to
    providemquiredtechnicalorbusinessstatusrepoti or materiallyfails to complyin any
    otherway with the termsof an agreement.It is auf?kientto identify the remediesthat may
    be used, becausethe mandatefor agreementsoffieerato enforcerequirementsof assistance
    awardsslready is inkgrated throughoutDoD3210.6-R and ensuringtimely submissionof
    requiredreportsis explicitlya functionof grantsadministrstionofficesin subpartG of
    part 22 of thoseregulations. However,DoDguidanceshouldnot mandatethe uae of one
    specificremedy,withholdingpayments,in all casea. The agreementsofficershouldhave the
    latitudeto exe&K goodbusinessjudgmentand &et the most appropriatenut&y in each
    circumstance.The interim DDR&Eguidancefor technologyinvestmentagreements(TM)
    make-savailablea range ofremedies for enforcementpurposes. Therelikely ia benefit in
    providing further cluif~ation in the guidance that those tunedies afe available, and the
    DDR&Econcurswith doing so.


m                       WCrecommendthat the Director,Deft Researchand Engineering
@DR&E)issue guidancein the DODGrant and Agreunent Regulationsfor mvardmgand
administeringresearch”otkr transactions”that requiruathe researchparticipamto wbmit
business statusreportsthat identifyresearchexpendituresby participant,milestone,or task, and
tbat identify expenditurevariancesin relationto the maearchAnnual ProgramPlan.

    _:          The DDR&Epartiaflyconeun. The DDR&E;~lgna that periodiclechnicaland
    bYsiaessreportspnn~loIhestcuPrdzhipofnserrchpaformedundaaTU,but
    does not concur with mandatingin everycase the d&ailsdescribedin the recommendation.
    Underthe currentguidancefor ‘Ius, buaineasatatuareportsare to providesummarized
    detailson the status of federalfirm&rd norkfedenl coatahrrin&data that are used to help
    ensure good overallcashmanagement.The guidancefurtherno@ that the reportssbouhi




                                              43
Defense Research and Engineering                     Comments




               wmpare the status of resourceswith original payment and expenditure scbeduks or plans,
               explain any major deviations, and discussactions that will be t&at to addressthem. In
               easeswhere die details on expaxhtums by participant, milestone or task are not aecded by
               agreementsadmi&rators or program officials, requiring that they be provided createsan
               unnecessvy added administrative burdea for recipients, ‘Iberefore, the DDR&E concurs
               with issning guidance that: (1) permits the agremternsofficer to require that businessstatus
               mports include such details in caseswhere he or she, a&r consukation with the program
               official, judges that those details am needed for @ stewardship; and (2) stnxsea the
               importance of clearly communicating the reporting requirements to the office responsible for
               post-award administration of the agre4xnent.



           S                        We recommend that the Dir&or, Defense Researchand Engineering
           @DR&E) issue guidance in the DOD Grant and A&mcmcnt Regulations for awarding and
           administering research“other transactions” that requires the adjustment of payable milestone
           scheduleswhen DoD reimbunement unmamnably exceedspctual cost.

               u:          The DDR&E concurs with the substanceof the recommendation, which is
               substantively equivalent to a recommendationmade in 1997 in OIG Report 97-l 14.
               However, there is no need to issue additional guidance becausethe DDR.&E issued gnidancc
               to implement the 1997 recommendation That guidanrx. issued on March 24.1998, with the
               mncurrencc of the Inspector General, DoD, stateathat:

                    “To ensure good cash management,an agreementsoflicer shall work with the
                     responsible Government program offkial either at the completion of each payable
                     milestone or upon receipt of the qusrteriy businessstatusreport to:
                       - Compare the total amount of project expenditures, as reconkd in the payable
                         milrstone report or quarterly businessstatusreport, with the amount of paymmts
                         for completed milestones; and
                       - Adjust future payable milestones, as neededto closely match the payments to the
                         recipient’s cash needs for the project.”

                                                      UC4 4 999

           m                       We recommendthat the Director, DDR&E issue guidance in the DoD
           Grant and Agreement Regulations for awarding snd admiistering msearch“other transactions”
           that requires the maearchpatkipant to submit the Ammal Program Plan to the agruments
           administrator responsible for monitoring the effofl.

               Rrslpalc: The DDR&E concurs and will issueguidance for the agreementsofficer to
               include a provision for submissionof the annual program plan in any award document under
               which the recipient is required to prepare such a plan.




                                                       ?w~oZof 4




                                                                   44
                                 Defense Research and Engineering                             Comments




m                      WerecrnmncndthattheDinxxw,DDRaEkauegukanceinthcDoD
GrantudABreanentR~~for~gmdrdministeriag~”otbatrsnuctions”
thatprohibitsthe invertmartof intereaton DOD fimdr in mrearcbprogmma.

   u:          TheDDRdtEconavswitbtbc&tanccofthercuntnnemktio%butnotocthat
   additionalguidarxcis notneeded Tbc DDR&E guidarxeiaauedin March, 1998 aa a reauh
   of a ruxmma&ion in the OIG reportNo. 97-l 14. “Award andAdminktmtionof
   Contmc&Grants,andOtherTrau&ionaksucdByTbeDef~Advan=dRaeareh
   ProjectsAgency,”rcquireaan agrcunentaO&U to forwardintacat received6wn I
   rccipieatto the reaponsibkpaymentoffs for returnto the Deputmeal of theTIWS@S
   mixellmw       receiptsaccount;thatguidanceia aufEcimtto fee&k the uacof intereatfor
   any otha purpose.



s                    We nxomrnendthatthe Dire&r, DDRkE issueguidancein the DOD
Grant andAgrmnent Regulationsfor awardingaodadministering
                                                        research“othertram&ions”
thatencouragesthe uacof the-Defensecontnct Managementcommandin reviewing “Other
trausaction”
           costpropoaals.

   &&R~8&8: The DDR&E concurswith theprinciplethatagmements
                                                          officus shouldtake full
   advantageof the cxpatise of the DefenseContractManagancntCommand(DCMC) and
   otherofficesthatprovidefield administration services,butdoesnotconcurthatit is
   necesspry IO write additionalguidance
                                       in this arca The DOD GrantandAment
   Regulations(DOD 3210.6-R) alrudy makethegeneralpointthal theDefenseContract
   ManagementCommandis a valuableaourccof pm-awud,aswell M post-awatd,expertise
   for assistingagreements  of5cem.



B                     We recommendthattheDirector,DDR&E iaaueguidatxein the DOD
Grantand AgreementRegulationsfor awardingandadministering  m      “othertransactions”
thatprohibitsthe awardof cost-of-nvxrey
                                      andprofit for “oti tmmactkns.”

   u:           The DDR&E partiallyconcura.Therewouldbe vduo in addinga aMententin
   the interimgnidanccon TIAs thatprohibitsthepaymentofprofit. That Mentent would
   parallel the DOD policyprohibitingprofit for otheraaaiatance
                                                              Mnnnen~ that appeatain
   section22.205(b) of theDOD GtantandAgmuneM Reguktioru(DOD 3210.6-R). The
   rationalefor theprohibition,whichis the aamcin thetwo ca5cs,it tlut profit i iqproptiato
   in an ar&?tantznLiorwhip. whetheror notcostsharingi6 involved.

   ‘IheDDR&Ecannotconcurwithtbc mcomm&ation to disalkw coat-of-moneyfor TIAs,
   however,bccaur costof-moneyis aliowabk for otherFederalaa&ancc to for-pro& firms
   underapplicableGovamnmtwi& guidancein OMB CircularsA-182 andA-l IO. The
   Circularsapplythe costprinciplesin pars31 of tbc FederalAquiaition Regulation(FAR) to
   aa6istancea&awardsthatarcmadeto for-profitErtn.9by Stateandlocalgovcmmcnta,




                                     45
Defense Research and Engineering




              univasities, and other nonprofit organiutions. Using those cost principles, for-profit tirms
              performing Federal programs ss subawardeesunder assistanceawards are allowed to recover
              cost-of-money. It would be inconsistent to prohibit those samefhms from recovering
              cost-of-money in conjunction witb Federal assistancethat they receive Y prime awa&es.




          v                    WerecommcndlhettheDirector,DD~EiuueguidPnccintheDoD
          Gmnt and Agreement Regulations for w&g  and administaing research“otba tnnirsctions”
           that requires withholding a sthtmtiai   amount of the linal milestone paymatt until the
           Government technical representativehas approved the final technical report and the r*iearch
           participant has submitted the technical repori to the Defense Technical Information Center.

              u:            The DDR&E partially concurs. The agrxments ofticcr, in consultation with the
              program official, must decide at the time of award whether to require a find te~hnicairrport.
              If a report is required, its submission and acceptanceby the government representative should
              be incorporated as an event for one of the payable mileston+ sod the DDIUE wncurs with
              revising the guidance to make that a requirement. The DDR&E also concun~with adding
              guidance for awarding ofices that have raipients submit technical repoti directly to the
              Defense Technical Information Centa @TIC); the guidance would squire those ofices to
              instruct recipients (e.g.. through an award tam or condition) to include a hrlly completed
              DD Form 298 with each such report, so tbat the DTIC can recognize the document as being
              related to a particular DoD award and properly record its rcccipt. The DDRAE does not
              concur with withholding a payment until a report has been received, recognized, and properly
              recorded by the DTIC; the payment should be predicated only on the acceptpnceof the
              recipient’s report by the govemment repnsentative.



          s                       We recommend that the Directors, DDRdE and Defense Procurement,
          establish an integrated processteam IOdevelop quantifiable performance measuresand metrics
          for “‘other transactions” for researchand prototypes.


              u:           The DDR&E concur with the nxonunendation to by to develop ways to assess
              the value ofthese assistanceinstruments, although appropriate measuresmay necukly
              include both qualitative and quantitative methods. The ODDR&E is participating with the
              ODDP in an integrated processteam chart&        to develop metrics for “other tram&on.?      for
              prototype projects, acquisition instruments that may be more amenable to quantitative
              metrics than rssistance insttume& used to support TcscpIcJ. The DOD Grant and Agrxtanat
              Regulations Working Group will consider whether the metrics identified for those “action
              845 other trans&ions” may also be applied to “other tmnsactions” for reaeatch,and wheti
              there an otba meaningfbl measure4that could be used.




                                                      hp4d        4




                                                         46
Defense Procurement                                 Comments


                      OFFICE       OF THE UNDER              SECRETARY                OF DEFENSE

                                           3ooo DEFENSE             PENTAGON
                                         ,WASHlNGTON,         DC         20301-MOO




                                                                                 June      16,        1998

      DP/DSPS



                      FOR DEPUTY ASSISTANT INSPECTOR GENERAL FOR AUDIT
                            POLICY AND OVERSIGHT, DOD INSPECTOR GENERAL

      SUBJECT :      DODIG    Draft   Audit    Report     on Financial  and Ccst                                 Aspects
                     of   Other   Transactions        (Project   No. TAB-00511


              This    is in response         to your request       of                April   16, 1998,     to
      provide      conunen:s  on the       subject     draft  report.                     Our comments     are
      provided       on recommendation           2, recommendation                    3.a through     3.e,     and
      ether    statements     in the       draft    report.

             Thank    you    for   the    opportunity               to    comment         on    the     draft.




                                                        Eleanor           R.    Spector
                                                        Director,              Defense         Procurement

      Attachments




                                                          47
Defense Procurement             Comments




             DODIG DEMT AUDIT REPORT ON FINANCUL AND COST ASPECTS OF OTEBR
                          TRANSACTIONS (PROJECT 10. US-0051)

                                 O?FICE      OF   TSR   UNDER SECRCTARY OF DSFENSL
                      (ACQUISITION        AND TECENOLOGY)DIRECTOR              DLFRRSE PRO-


                                     COMMSNTS ON SELSCTSD RSCOMSINDATIONS

                                                     t+**.+*********

                          2. The DODIG recommends
            Rocoarmendation                                          that   the Directors,
            Research       and Engineering     and Defense       procurement,       establish                  an
            integrated        process   team to develop      quantifiable        performance
            measures       and metrics     for “other   transactions”         for research                  and
            prototypes.

            DPP’ a Rmeponae:              Concur.       DDP has been participating               in an
            integrated          process      team since     March 1998 to develop               quantifiable
            metrrcs       for    other     transactions      for prototype      projects.

            Rocommendation3.a. The DODIG recommends                        that  the Directo:,
            Defense       Procurement,      issue     policy    for prototype      “other
            transactions”         that   requires      the withholding        of prototype
            milestone        payments    when the prototype         participant       does not submit
            technical        and business      status      reports and annual       plans  within  the
            terms     of the agreement.

           DDP’s Rasponro:             Partially        concur.      DDP agrees        that     appropriate
           action      should     be taken       when the terms          of the agreement            are not
           met.       DDP does not agree            that    it is necessarily            appropriate         to
           withhold       prototype       milestone        paymen:s      because      a report       or plan
           has not been submitted.                  The appropriate            action    should      be left       to
           the discretion           of the agreement            administrator.           DDP will       issue
           guidance       that requires          the agreement         administrator          to ensure        the
           participant         is complying         with the terms           of the agreement           and to
           take     prompt,      appropriate        action      when the terxs         of the agreement
           are not met.

           Rocommndation              3.b.    The DCDIG recommends      that    the Director,
           Defense      Procurement,          issue policy   for prototype        “other
           transactions”            that   requires  the participant       to submit     the Annual
           Program       Plan to the organization          responsible       for monitoring    the
           prototype        effort.

           DDP’ I Usponao:            Partially      concur.   DDP will     issue     guidance      for
           other     transactions         for prototypes     to require     reports      needed     for
           agreement       administration        to be delivered      to the agreement
           administrators.            DDP does not agree       that   every    prototype       other
           transaction         must require      an annual program       plan.



                                                                      1                       Attachment            (1)




                                                                          48
                                                               Defense Procurement                 Comments




Rec~n&tS.on         3.c.   The DODIG recommends that           the Director,
Defense    Procurement,    issue   policy     for prototype     “other
transactions”      that requires     the participant       to maintain      DOD funds
in an interest-bearing        account     and submit    the interest      to the
U.S. Treasury     when the prototype        “other   transaction”      uses
performance     payable  milestones.

ho-ndation            3. d.  The DODIG recommends       that the Director,
Defense     Procurement,     issue   policy   for prototype    “other
transactions”        that emphasizes      the need to adjust     payable
milestone       schedules   when DOD reimbursement       unreasonably    exceeds
actual    cost.

DDP'a Responm          to 3.~.    and  3.d.:       Partially      concur.       These
recommendations          assume that all milestone             oavments
                                                               . _           are intended
to track      directly      to expenditures.         There may be instances             for
prototype      projects,      when risk      is low and price         can be
realistically         determined,     that fixed-price          type milestones         will
be established.           In these    cases,      payments may not necessarily
track     to expenditures.          DDP ~111 issue        guidance     requiring      payment
provisions       to specify     whether      milestone      payments      are intended       to
be adjusted        for expenditures       and to include          the procedures        for
adjustment.          In those   cases    where payments         are intended        to track
to expenditures,          DDP guidance       will   require     a statement       in the
agreement      that the milestone         payments      will    be adjusted       based     on
expenditures.

FWcommndation 3.e.             The DODIG    recommends     that the Director,
Defense     Procurement,       issue policy     for prototype      “other
transactions”        that   requires   withholding      a substantial       amount of
the final      milestone     payment until      the Government       technical
representative        has   approved   the final     technical     report     and the
report    is submitted       to the Defense      Technical     Information      Center.

DDP’ s Ruponmo :          Partially      concur.       DDP will     issue     guidance    that
provides     for the agreements            officer,      in consultation         with the
project     manager,      to decide      if the agreement          should     require   a
final    report    and whether        this     final   report    is a significant
requirement.         If a final       report      is a significant        requirement       of
the agreement,         the acceptance          of the report       should     be
incorporated       into     one of the payment milestones.                  If the report
is not delivered,           the milestone         payment should       be adjusted
accordingly.         DDP guidance        will     also   require    agreement
participants       to provide        evidence       of submittal      of required      reports
to Defense      Technology        Information        Center.




                                                     2                      Attachment       (1)




                                                    49
               Defense Procurement Comments

Final Report
  Reference




                        DODIG DRAFI!ADD14 RtFORT ON FINANCIAL AND COST ASPECTS OF OTWR
                                      mswmt7s      (PR~~cT ~0. 7m-0051)

                                     OFFICE OFTSE UNDER SECRETARYOFDLf%NSE
                             (ACQUISITIONAND TECENOLOGX)DIRECTOR DWENSE PROCUREMENT




                       1. A rewrote   of the         Znd and 3rd paragraph         is    recommended      to
                       correct the following          concerns:

                               a.   Page i, 2”d paragraph       - It is not clear      if this
                       oaragraph     intends   to focus on other transactions           for research    OK
Revised
                       both types of other        transactions.      The paragraph      inappropriateiy
                       creates    the impression       that the FAR/DFARS applies         to assistance
                       Instruments,       such as grants.       The paragraph    introduces     the word
                       “development”       when the statute      only refers   to research      or
                       prototype     projects.

                              b.   Page i, 31d paragraph.      This          paragraph      incorrectly
                       paraphrases     the FY 1994 Authorization              Act.

                       Recommended rewrite:

                       “Other transactions”             are instruments       other than contracts,
Revised                grants,     and cooperative          agreements    that are used to stimulate,
                       support,      or acquire       research    or prototype       projects.       “ether
                       transactions”         were authorized       as instruments         co be used to reduce
                       barriers      to participation          of commercial      firms in DOD research,
                       contributing        to the broadening         of the technology           and industrial
                       base available          to the DOD, and fostering            within     the technology
                       and industrial          base new relations       and practrces          that support
                       national      security.       “Other transactions”           are not subject        to
                       statutes      or regulations         that are limited        in applicability         to the
                       use of a contract,           grant,     or cooperative       agreement.

                       The authority      to use “other         transactions”        for basic,     applied,     and
                       advanced    research     projects      is in sectlon        2371 of Title        10, United
                       Stated    Code, “Research        projects:        transactions        other  than
                       contracts     and grants.”        Section      2311 was enacted          in 1989 as a
                       two-year    pilot    authority      for the Defense Advanced Research
                       Projects    Agency IDARPA). The National                  Defense Authorization          Act
                       for Fiscal      Year 1992 (P.L. 102-190) broadened                  the authority      to
                       the Military      Departments       and made it permanent.               The authority
                       requires,     to the extent       practicable,         that the government         funding
                       for the research        not exceed that provided              by the non-government
                       parties    and that the research            not duplicate        research    already



                                                                         1                       Attachment      (2)




                                                                              50
                                             Defense Procurement Comments

                                                                               Final Report
                                                                                 Reference



performed under DOD programs.  The authority may be used when a
standard contract, grant or cooperative  agreement is not feasible
or appropriate.

The National Defense Authorization       Act for Fiscal Year 1994 (P.L.
103-160),   as amended, permits the use of “other transactions”          to
carry out prototype projects       that are directly  relevant to
weapons or weapon systems proposed to be acquired or developed by
the Department.      Section 945 of the National Defense
Authorization    Act for Fiscal Year 1994 provided three-year       pilot
authority    for DARPAto use “other transactions”       for prototype
projects.     Section 804 of the National Defense Authorization        Act
for Fiscal Year 1997 IP.L. 104-201) broadened the authority           to
the Military    Departments and other designated officials,       and
extended the authority      through September 30, 1999.     “Other
transactions”     for prototype projects   are to be awarded using
competitive    procedures,   to the maximum extent practicable,     but do
not require non-government funding to match or exceed government
funding.     “Other transactions”    for prototype projects   can be used
even if a contract would be feasible       or appropriate.

2.   Page 2, first three paragraphs - same concerns as expressed              Revised
In the comments above.   It is recommended that the above rewrite
be included in lieu of the current first  three paragraphs on this
page.

3.    Page 3, last paragraph.     This paragraph states that the only
guidance on section 845 other transactions       is the USD(A&Tl              Revised
memorandum of December 14, 1996.       There is also OUSDiA6T)/DDP
memorandum of October 16, 1997 that provides guidance on the
assignment of instrument identification       numbers and collection   of
common data elements for section 845 other transactions.           The
military   departments have also issued memoranda on the use of
section   845 other transactions.     Copies of these memoranda can be
found in the DODDeskbook at “uwu.dehbook.oad.mil”.

4.   Page 4, 31d paragraph, 1” sentence.    Recommend deletion   of
“payments may be based on cost as opposed to a predetermined
payment schedule”.     This statement is true of either an other
transaction   for research or an other transaction   for a prototype
project.    There is not a mandated payment method for either type
of other transaction.

5.   Page 4, 3rd paragraph, last sentence,    states incorrectly    that      devised
“Upon completion of the prototype    ‘other transaction’    effort,   the
prototype is delivered    to the Government.“.     Though a prototype
may be developed under an other transaction,       it may not always be
delivered  to the Government.




                                        2                 Attachment    (2)




                                       51
               Defense Procurement   Comments

Final Report
  Reference



                       6.  Page 5, Table 1. Corrected statistics on 845 awards have
 Revised               been separately provided to the DOD IG.




                                                          3               Attachment   (2)




                                                              52
Office of the Army, Assistant Secretary (Research
Development and Acquisition) Comments


       R                         DEPARTMENT OF THE ARMY
                                   _i Of THE ASSISTANT SECRETARY
                             RE!iEARO( DEVEldPMENT AND ACOUISITION
                                       103 ARMY PENTAGON
                                     WASHINGTON DC 103lW103




      SARD-PP




      MEMORANDOM FOR ASSISTANT INSPECTOR GENERAL (AUDITING), 400
                       ARMY NAVY DRIVE, ARLINGTON VIRGINIA 22202


      SUBJECT: Draft Audit Report on financial and Cost Aspects of Other
               Transactions (Project No. 7AB-0051)



           The attachment to this memorandum provides comments on
      Recommendations 4 and 6 of the subject audit report.

            I appreciate having the opportunity to comment on the draft report.




      Attachment
Office of the Army, Assistant Secretary (Research Development                           and
Acquisition) Comments




              COMMENTS ON RECOMMENDATIONS 4 AND 6 OF DRAFT
              INSPECTOR GENERAL REPORT FOR PROJECT NO. 7AB-6051




        m.                        We recommend that the Commander, Army
        Communications-Electronics Command, require technical and business status
        reports in all “other transactions” that the agency issues.


              Response: Partially concur. The Army partially concurs in this
              recommendation, and agrees that periodic technical and business status
              reports are necessary to the responsible stewardship of funds expended
              for research performed under “Other Transactions.” These reports will be
              required in all “Other Transactions” that the Army issues. The Army,
              however, does not concur with mandating in every case the level of detail
              for business status reports, which is described elsewhere in the subject
              draft report (i.e., Recommendation 1.b - “identification of research
              expenditures by participant, milestone, or task, and identtficetion of
              expenditure variances in relation to the research Annual Program Plan”).
              Under the existing guidance for Technology Investment Agreements (i.e.,
              “Other Transactions” and Cooperative Agreements designed to increase
              participation of commercial firms in DOD research, by supporting or
              stimulating such research), business status reports are to provide
              summarized details on the status of federal funds and non-federal cost
              sharing, data that are used to help ensure good overall cash
              management. The guidance also notes that the reports should compare
              the status of resources with original payment and expenditure schedules
              or plans, explain any major deviations, and discuss actions that will be
              taken to address them. In cases where details on expenditures by
              participant, milestone, or task are not needed by Agreement
              Administrators or program officials, requiring that they be provided creates
              an unnecessary added administrative burden for recipients. The
              Agreements Officer, in consultation with program officials, should
              determine the appropriate level of detail required for the business status
              report, on a case by case basis, to ensure responsible stewardship of
              federal funds.




                                                        54
   Office of the Army, Assistant Secretary (Research Development and
                                                Acquisition) Comments

                                                                                         Final Report
                                                                                           Reference
                                                                                     1




                                       -2-




m6.                     We recommend that the Commander, Army Materiel
Command; the Commander, Air force Materiel Command; and the Director,                    Recommend-
Defense Logistics Agency, include the administrative process of “other                   ation
transactions” in their management controls programs.
                                                                                         renumbered


      m:            Partially concur. The inclusion of the administrative process
      of “Other Transactions” in the Management Controls Program (MCP), to
      include the formulation of an evaluation/checklist for “Other Transactions”,
      is contingent upon DDR&E and the Director, Defense Procurement
      completing the actions in Recommendations l-3. Therefore, it is
      premature to include “Other Transactions” in any MCP before further,
      definitive guidance is issued by these ofhces. Moreover, since “Other
      Transactions” are awarded throughout DOD,not only by the Military
      Departments, but also by Defense Agencies, the evaluation/checklist, and
      any other documentation inherent in the MCP process, should tx written
      and approved at the Do0 level, with representatives from the Military
      Departments and Defense Agencies participating in its formulation. This
      will help to ensure uniform application of MCP to “Other Transactions”
      throughout DoD.

      When the DODInspector General Report is finalized, the Office of the
      Deputy Assistant Secretary of the Army (Procurement) will provide a copy
      of the report to all Army activities, (to include Army Materiel Command
      activities), which award ‘Other Transactions” alerting them to the
      recommendations found by the DODIG.




                                               55
                Office of the Air Force, Assistant Secretary
                (Acquisition) Comments
 Final Report
  Reference

                                                  DEPARTMENTOF THE AIR FORCE
                                                         WA8MIIoToN
                                                                 DC




                       MEMORANDUM FOR ASSISTANT INSPECTOR GENERAL FOR ALJDImG, OFFICE OF
                                      THE INSPECTOR GENERAL. DEPARTMENT OF DEFENSE

                       FROM:    SAF/AQC
                                I060 Air Force Pentagon
                                Washington DC 20330-1060

                       SUBJECT:     Air Force Response to DoDIG Drafl Report, Financial and Cosl Aspects of Other
                                    Transactions, (Project No. 7AB-0051)

                       This is in reply to your memorandum requesting Air Force comments on subject report.

Recommend-                    Btion              6. We recommend that the Commander, Army Materiel Command; the
ation                  Commander, Air Force Materiel Command; and the Diior,         Defense Logistics Agency, include
renumbered             the administrative process of “other tmnsactiom” in their management controls programs.

                               Ah Forcp Resnorrse: Concur. We agree that appropriate action should be taken to
                       include the administrative process of “other tmnsactions” in the Air Force Materiel Command’s
                       management control programs.




                                                                          TERRY L. IUNEY, Cal, USAF
                                                                          ActingAssociate   DeputyAssistant
                                                                           Secretary (Contracting)
                                                                          Assistant Secretary (Acquisition)




                                                   56
Defense Finance and Accounting Service
Comments


                    DEFENSE   FINANCE       AND     ACCOUNTING         SERVICE

                               1931   JEFFERSON     DAVIS   HIGHWAY

                                  ARLINGTON.      VA 22240--5291

                                                                           JJN29Is%

     DFAS-HQ/FCC


         MEMORANDUM FOR DIRECTOR, ACQUISITION MANAGEMENT DIRECTORATE,
                          OFFICE OF THE INSPECTOR GENERAL, DEPARTMENT OF
                          DEFENSE

         SUBJECT:   Response to DoDIG Draft Report, "Financial and Cost
                    Aspects of Other Transactions," dated April 16, 1998
                    (Project No. 7AB-0051)


              In response to your memorandum of April 16, 1998, the
         Defense Finance and Accounting Service has provided the attached
         comments on Recommendation 5.

              Our point of contact i                                  He   can be reached
         at (703) 607-5030.




         Attachment:
         As-stated




                                                     57
                 Defense Finance and Accountine          Service Comments

Final Report
 Reference



                           Defense Finance and Accounting Service Comments on DoDIG Draft
                           Report, Financial and Cost Aspects of Other Transactions, dated
                                        April 16, 1998 (Project No. 7A8-00511

                          -5:                 We recommend that the Director, Defense
                          Finance and Accounting Service, obtain signature cards from the
 Recommend-               Defense Contract Management CommandSeattle for verification  of
 ation deleted            signatures on invoices submitted for payment.

                          w:                  Nonconcur.    In the Department of Defense
                          Financial Management Regulation, Volume 10, Chapter 9, signature
                          cards or lists of authorized government representatives           are not
                          required to be maintained by disbursing offices;          however, the
                          delivery receipt must contain the signature of an authorized
                          government representative.        The receiving activity     is responsible
                          for assuring that receipt and acceptance of goods and services is
                          properly acknowledged and documented. The activity            must assure
                          that the function is performed by qllalified       and ccmpetent
                          personnel relevant to the goods or services received.            The
                          receiving activities      are also responsible  for maintaining the
                          list of personnei authorized to sign receiving reports.             On a
                          practical    level, the number of personnel who may document receipt
                          and acceptance is usually quite large and there is typically             a
                          substantial     turnover in the personnel assigned.       Since the
                          activity   has the expertise,     knowledge and responsibility      for
                          assuring that the government receives appropriate value and DFAS
                          cannot effectively      maintain the large, vclatile    list,   the
                          respcnsibility     appropriately   remains with the activity     and DFAS
                          accepts the signature as valid on its face.

                          Estimated Completion Date:      Action    complete.




                                                                       58
Defense Logistics Agency
Comments


                              DEFENSE     LOGISTICS     AGENCY
                                        HEADQUARTERS
                            8725 JOHN J. KINGMAN ROAD, SUITE 2533
                               FT. BELVOIR, VIRGINIA 22060-6221

                                                                    1 8 JUW 1398
,E PLY   DDAI
EFERTO

         MEMORANDUM   FOR ASSISTANT INSPECTOR GENERAL FOR AUDITING
                                  DEPARTMENT OF DEFENSE


         SUBJECT:   Draft Report   on Financial and Cost Aspects       of Other
                    Transactions   (Project No. 7AB-0051)


              Enclosed are DLA comments in response to your reqUeSt  of
         April 16. 1998.  Please contact Zora Henderson, DDAI, 767-6272,
         if you have any questions.




                                         &e,@?
                                                           Liaison & Policy
                                            Internal   Rebiew Office




                                              59
Defense Logistics Agency Comments




                                                                                      1 BJilN1998

         SUBJJXT: Financial and Cost Aspects of Other Transactions (Project No. 7AEb0051)

         FINDING: The DODadministration of “other transactions” generally has been adequate.
        However, the Army, the Air Force, the Defense Finance and Accounting Service, and the
        Defense Contract Management Command need to improve their management controls. Those
        conditions exist because guidance was inadequate for the administration of “other transactions,”
        and management did not devote suffkient attention in developing a process to quantify the
        benefits from using “other transactions.” As a result, DoD offkials did not have the information
        necessary to adequately monitor “other transaction” efforts, did not adjust milestone payments
        when necessary, inappropriately awarded cost of money and profit, forfeited interest, and did not
        receive information necessary to preclude duplicating research. The Defense Finance and
        Accounting Service could process invoice payments without proper approval. Finally, the
        Directors, Defense Research and Engineering and Defense Procurement, did not establish
        quantifiable performance measures to determine the costs and benefits resulting from the use of
        “other transactions.”

        DLA COMMENTS: We concur that DCMC guidance is lacking. DCMC will develop and
        incorporate guidance for the administration of “other transactions” into the DLAD 5000.4,
        Contract Management. We expect to have this guidance fully developed, coordinated and
        published by November 30, 1998.

        Internal Management Control Weakness:
        (x ) Concur that DCMC guidance is lacking. Weakness will be considered as part of the DCMC
        Annual Statement of Assurance.

        Action Offkcr: Tim Frank, DCMC-OC, 703-767-3431
        Review/Approval: Gary S. Thurber. Deputy, DCMC
        Coordination: Dave Stumpf, DDAI, 767-6266

        DLA APPROVAL:




                                                      60
                                                    Defense Logistics Agency Comments




SUBJECT: Financial and Cost Aspects of Other Transactions (Project No. 7AB-005 1)

RECOMMENDATION 6: We recommend that the Commander, Army Materiel Command; the
Commander, Air Force Materiel Command; and the Director, Defense Logistics Agency, include
the administrative process of “other transactions” in their management controls program.

DLA COMMENTS: We COncur with the recommendation that we include the administration     of
“other transactions” in our DCMC management controls program.

DISPOSITION:
( X ) Action is ongoing.   ECD: November 30,1998

Action Offtcer: Tim Frank, DCMC-OC, 703-767-3431
Review/Approval: Gary s. Thurber, Deputy, DCMC
Coordination: Dave Stumpf, DDAI, 767-6266

DLA APPROVAL:




                                  RR. CHAhG3ERLTN
                                  Rear AtiraT, SC, USN
                                  Deputy Director




                                             61
Audit Team Members

 The Acquisition Management Directorate, Offke of the Assistant Inspector
 General for Auditing, DOD, produced this report.

 Thomas F. Gimble
 Patricia A. Brannin
 Raymond A. Spencer
 Roger H Florence
 James F. Friel
 Shirley Willard
 Gary B. Dutton
 Vonna D. Swigart
